<html>
<title> - THE STATE OF THE AMERICAN CHILD: SECURING OUR CHILDREN'S FUTURE</title>
<body><pre>[Senate Hearing 111-1163]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1163

 
                    THE STATE OF THE AMERICAN CHILD:
                     SECURING OUR CHILDREN'S FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

  EXAMINING THE STATE OF THE AMERICAN CHILD, FOCUSING ON SECURING OUR 
                           CHILDREN'S FUTURE

                               __________

                           NOVEMBER 18, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
79-818                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b7d0c7d8f7d4c2c4c3dfd2dbc799d4d8da99">[email&#160;protected]</a>  


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
ROBERT P. CASEY, JR., Pennsylvania   ORRIN G. HATCH, Utah
KAY R. HAGAN, North Carolina         LISA MURKOWSKI, Alaska
JEFF MERKLEY, Oregon                 TOM COBURN, M.D., Oklahoma
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas          
MICHAEL F. BENNET, Colorado          
JOE MANCHIN, West Virginia           
                                       

                    Daniel E. Smith, Staff Director

                 Pamela A. Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Children and Families

               CHRISTOPHER J. DODD, Connecticut, Chairman

JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             JUDD GREGG, New Hampshire
JACK REED, Rhode Island              JOHN McCAIN, Arizona
BERNARD SANDERS (I), Vermont         ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania   LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina         TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                 PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado          MICHAEL B. ENZI, Wyoming (ex 
TOM HARKIN, Iowa (ex officio)        officio)
                                       

                     Averi Pakulis, Staff Director

                David P. Cleary, Minority Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                               STATEMENTS

                      THURSDAY, NOVEMBER 18, 2010

                                                                   Page
Dodd, Hon. Christopher J., Chairman, Subcommittee on Children and 
  Families, opening statement....................................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     4
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................     5
Sanders, Hon. Bernard, a U.S. Senator from the State of Vermont..     6
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................     7
    Prepared statement...........................................     7
Edelman, Marian Wright, President, Children's Defense Fund, 
  Washington, DC.................................................    11
    Prepared statement...........................................    13
Garner, Jennifer, Artist Ambassador, Save the Children, Los 
  Angeles, CA....................................................    16
    Prepared statement...........................................    19
Edelman, Peter, Professor of Law, Georgetown Law Center and 
  Faculty Co-Director, Georgetown Center on Poverty, Inequality, 
  and Public Policy, Washington, DC..............................    20
    Prepared statement...........................................    22
Satcher, David, M.D., Ph.D., Director, The Satcher Health 
  Leadership Institute and Center of Excellence on Health 
  Disparities, Morehouse School of Medicine, Atlanta, GA.........    26
    Prepared statement...........................................    28
Blank, Helen, Director, Leadership and Public Policy, National 
  Women's Law Center, Washington, DC.............................    30
    Prepared statement...........................................    33
Casserly, Michael, Ph.D., Executive Director, Council on Great 
  City Schools, Washington, DC...................................    41
    Prepared statement...........................................    44
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    52

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Debra L. Ness, President, National Partnership for Women & 
      Families...................................................    64
    Tracy L. Wareing, Executive Director, American Public Human 
      Services Association.......................................    65
    Response to questions of Senator Hatch by Marian Wright 
      Edelman....................................................    66

                                 (iii)

  


    THE STATE OF THE AMERICAN CHILD: SECURING OUR CHILDREN'S FUTURE

                              ----------                              


                      THURSDAY, NOVEMBER 18, 2010

                                       U.S. Senate,
             Subcommittee on Children and Families,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:34 a.m. in 
Room SD-430, Dirksen Senate Office Building, Hon. Christopher 
J. Dodd, chairman of the subcommittee, presiding.
    Present: Senators Dodd, Alexander, Mikulski, Reed, Sanders, 
Casey, Hagan, and Bennet.

                   Opening Statement Of Senator Dodd

    Senator Dodd. The committee will come to order. Will my 
witnesses join the witness table this morning?
    I want to welcome all our guests here this morning, as well 
as our witnesses, and our colleagues, obviously, and our 
staffs.
    We've got everyone together here? There you go. You're 
right there. Helen, you're right next to--Helen, sit down. Come 
on.
    [Laughter.]
    Helen and I have known each other an awful long time. We 
talk that way to each other. She used to tell me to sit down 
all the time.
    Ms. Blank. I always told you what to do.
    Senator Dodd. There, you go.
    Well, again, thank you all for being here this morning. I 
appreciate it very, very much.
    This is the last in a series of four hearings the 
subcommittee has held over the last year on the status of the 
American child; and this will be the last of those hearings. 
I'm very grateful to my colleagues who are here, as well as our 
witnesses who will give us their thoughts this morning on this 
most compelling of issues.
    Lamar Alexander, my good friend, is with us as well. We've 
done a lot of things together here over the years.
    I recall very vividly several years ago, a report, I think 
out of a children's hospital in Tennessee, talking about the 
condition of that child, maybe the first generation--and you 
correct me if I'm wrong--but the first generation of American 
children who may not live as well, or as long, or as healthy as 
their parents after the 220-year history of our country.
    This morning I'll make some brief opening comments. I'll 
turn to Senator Alexander for any comments. We don't have a 
huge gathering of colleagues here this morning, for all the 
obvious reasons, but I'll turn to my two colleagues who are 
here as well, if they have any brief opening comments they'd 
like to make; and then we'll turn to our witnesses who are 
here, a very distinguished panel of witnesses who have 
dedicated their lives in many, many ways to the issue of the 
condition of the American child.
    Then we'll have some good questions and a good conversation 
about what steps we ought to be taking.
    I'd like to thank all of you for being with us this 
morning. I would especially like to thank our distinguished 
panel of witnesses, and I look forward to their testimonies.
    You know, this is the fourth, as I said a moment ago, and 
final hearing in a series of hearings that I've held in this 
subcommittee over the last year to examine the state of the 
American child. This will be the last hearing that I'll chair 
in the Health Committee. It is fitting that I end my career in 
this committee on the most rewarding subject matters I've been 
engaged in for 30 years, and that is the condition of the 
American child and their families; those affecting children, 
their families and their futures.
    This subcommittee has been able to lead efforts to increase 
the well-being of our most vulnerable population; and I truly 
hope that the work of this subcommittee continues in the next 
Congress, as I'm confident it will.
    The subcommittee on children and families has been a vital 
forum for focusing on the needs of children, and is the only 
body in the U.S. Senate that has this as its sole focus. This 
subcommittee has held many titles over the years, including the 
Subcommittee on Children and Human Development, the 
Subcommittee on Children and Youth, the Subcommittee on 
Children, Family, Drugs and Alcoholism; however, I think the 
current title, Children and Families, is the most appropriate, 
and it indicates where our focus needs to be, on children and 
on their families.
    We've learned a lot over the last year, through this series 
of hearings, about the state of our children. We've heard from 
national experts, the Federal agencies that house children's 
programs, State leaders on children's issues, and programs at 
the State level that are actively working and making a 
difference improving the lives of our children, as well.
    Unfortunately, much of what we've heard this year has 
painted a sobering picture; and I think all of us are aware of 
the struggles of our children and their families. We've learned 
that 17 percent of America's children are obese, that more than 
80 percent of fourth graders are eligible for a free lunch--in 
fact, scored below the proficient reading levels, as well, and 
that more than one in five children lives in poverty, which is 
the highest rate since 1996.
    The recession, of course, has made the already difficult 
lives of millions of children and their families even harder. 
An estimated 8.1 million children under the age of 18 live in 
families with an unemployed parent. Approximately 43 percent of 
families with children report that they are struggling to 
afford stable housing. And nearly one in four children in our 
Nation relies on food stamps for nutrition.
    Unfortunately, we've become too accustomed to hearing these 
statistics, but in my strong opinion we cannot become numb to 
them. Each of these numbers represents a real child; it 
represents hunger, homelessness, or suffering. And as a father 
of two young children, I find this morally offensive, and so 
should we all.
    Despite this dim outlook, we know from history that it is 
possible to address these seemingly enormous problems. We've 
made headway on improving children's lives in the past, and I 
believe very firmly we can do again.
    In January 1964 Lyndon Johnson declared the War on Poverty 
and asked Sargent Shriver to lead the effort to head the Office 
of Economic Opportunity. Sarge Shriver appointed Dr. Robert 
Cooke, a pediatrician at Johns Hopkins University, to head a 
steering committee of 13 specialists, including Dr. Ed Zigler, 
to identify what should be done for young children. That 
steering committee issued the Cooke Memorandum, which supported 
the creation of Project Head Start.
    When President Johnson introduced Head Start as part of the 
War on Poverty, he said that 5-year-olds are the inheritors of 
poverty and not its creators; and unless we act, these 
children, he said, will pass it onto the next generation like a 
family birthmark.
    Passing this birthmark has gone on for far too long. It's 
time to, again, put a very specific and targeted focus on our 
children and the future of our world.
    Head Start, Early Head Start have now served 27 million 
children and their families since 1965 in its creation, 
providing young children and low-income families with 
comprehensive early education, health, nutrition, child care 
and social services.
    Over 20 years ago a National Commission on Children was 
established which laid out a plan to address the needs of 
children. Out of that effort came recommendations for the 
creation of several vital programs, such as the Earned Income 
Tax Credit, and the Children's Health Insurance Program.
    With more than one in five children living in poverty in 
the early 1990s various policies enacted under the Clinton 
administration, with the support of many, in a bipartisan basis 
in Congress, helped reduce the child poverty rate by more than 
25 percent in our country. That rate is, obviously, still too 
high. But no one can argue about the difference the child's tax 
credit, the work initiatives and expanded health insurance for 
low-income children made in the lives of millions and millions 
of our young Americans.
    Our children are clearly in crisis, we all know that. As 
each of our witnesses in these hearings over the past year has 
told us. However, we've seen how a focused and concerted effort 
to care for these children most in need can work and produce 
results.
    We must do this again, and now is the time to do it.
    That is why today my colleague, Bob Casey of Pennsylvania, 
who's with us, and I, will introduce a bill establishing a new, 
permanent National Council on Children. We need a body that 
regularly and closely examines the needs of American children 
and their families, and identifies solutions to improve their 
lives.
    There's a lot of talk in this community, obviously, about 
reducing the deficit. We all understand that. And children's 
programs can seem like some of the easiest to cut, as they 
often have been. But now is not the time, in my view, to cut 
these critical ideas and programs that have proven over, and 
over again how effective they can be in working for children 
and their families to see that they get back on their feet 
again. Investing in children and people makes sound business 
sense and will produce substantial savings, in my view, in the 
future.
    We will never, in my view, cut the deficit--in fact, the 
long-term deficit, without investing in the next generation of 
Americans. And we cannot possibly expect to see any of the 
statistics I've just listed turn around unless we focus our 
efforts toward doing just that.
    I look forward to hearing from our witnesses about what 
needs to be done, in the future, to reverse the existing 
downward trends which are so troubling, and that is occurring 
in our Nation's communities.
    As all of you know I'll not be here next year, but I intend 
to continue, in one way or another, fighting on behalf of our 
children and their families in the days ahead. And I look 
forward to hearing from my colleagues.
    With that, Senator Alexander, the floor is yours.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Chris. I'm here today to pay my 
respects to the witnesses, and to thank you for coming. It's a 
very distinguished group. I'm especially glad to see my friend, 
David Satcher from Nashville, who has now escaped to Atlanta 
for a while, but we're glad to see him.
    I especially want to use this occasion to thank Chris Dodd 
for his career and his focus on children and families. We're 
going to miss Chris' infectious congeniality, and his hard 
work, and his good humor--he's an extraordinarily good 
legislator.
    He's had a focus here, and it's been on children and 
families, and that focus, even though there are many different 
ideas about how to get where we want to go, has always been 
unwavering. I thank him for that, and I thank him for his focus 
on these four hearings that emphasize that.
    I have other hearings this morning I'm going to have to 
attend. I'm reading all the testimony, but I wanted to make 
sure I was here to say that, and to thank the witnesses.
    We have worked together, as he said, on important issues. A 
lot of this can be bipartisan; the Preemie Act is one, to try 
to understand why so many babies are born prematurely; we 
really don't know that. The more we knew about that, the more 
we could do about it.
    We worked on School-Based Health Clinic Establishment Act. 
It ended up in a bill I didn't support, but I still liked the 
proposal. That sometimes happened here.
    Senator Dodd has a personal interest in the Food Allergy 
Legislation, which is part of a legislation currently being 
debated on the Senate floor today. We worked together on that 
to try to come up with legislation that respected the 
responsibilities of States and the responsibility of families.
    Some of the best work, I think, was done on Head Start. 
It's maybe our most popular program. It's amazing to think 
about Head Start envisioned by a president who was once a 
first-grade teacher in Cotulla, TX. I know Cotulla, TX pretty 
well; and it's a great American story to think of someone going 
from teaching first-grade there to the Presidency of the United 
States--and then this program.
    We strengthened Head Start, I believe, and included within 
the new authorization Centers of Excellence, to focus on the 
Head Start Programs that are doing the best job. We spent a lot 
of money on Early Childhood Development from the Federal 
Government; the numbers are in the $20 billions a year.
    Most of us got on Head Start--it's on other things as well. 
The communities that are doing the best job of taking all the 
Federal money and focusing on it to help children are the ones 
that we hope other communities will model; and the Centers on 
Excellence do that.
    I thank you for the hearing, Senator Dodd. I thank you for 
your service and your friendship. We have no doubt that in the 
next phase of your career the focus will include children and 
families.
    Senator Dodd. I thank you, Lamar, very much, for that very 
kind remark; and I, too, have enjoyed working with you. By the 
way, the statistics on premature births, as a result of our 
legislation, are actually declining.
    That bill is up for reauthorization, so I'm counting on you 
to get it done as I leave. I'll be watching, carefully, here, 
too, from the bleachers.
    Barbara, any thoughts? Comments?
    Welcome.

                     Statement of Senator Mikulski

    Senator Mikulski. Well, yes. Thank you, Mr. Chairman. We're 
not taking opening statements. I was going to ask a point of 
personal privilege, because for me, today, being with you, it 
is a privilege, and it is personal.
    To our witnesses, I want to thank you for coming, and look 
forward to hearing your testimony.
    But, like other colleagues here, we have to note this 
passing of the torch. Indeed, there has been a torch. We want 
to thank you, Senator Dodd, for your steadfast leadership. You 
never failed children; you never faltered in being their 
advocate; and you always found a way, regardless of what party 
was in power, to continue to serve these children.
    You and I came to the Congress together; we served in the 
House together; we served in the Senate. I think you're just a 
real champion. I think all of America's children owe you a debt 
of gratitude; all of American families, from the legacy of 
Family and Medical Leave; safe, affordable availability of 
child care; and the list goes on.
    I know in about 2 weeks we'll be having a tribute to you, 
and we'll commemorate every single item.
    But for me what has been so inspirational is, again, the 
way--when I came to the Senate, I was the first Democratic 
woman, and for 8 years, the only Democratic woman here--that 
you didn't see the children's issues as like a girl's issue. 
Oh, Barb's here, and we're going to give it to you, to 
stovepipe it, to ghettoize it, and so on.
    You set the standard that it's men and women in it 
together; and it's not about gender; it's about the agenda, to 
keep on fighting. You've done this with such grace, such honor, 
such ingenuity. You've always had a fantastic staff that have 
worked with all of us. It's been, indeed, a pleasure.
    As a social worker, I want you to know I pledge my efforts 
to continue the standards and the trust that you have 
established.
    My very first job out of graduate school, at the University 
of Maryland School of Social Work, was a social worker in the 
Head Start Program. I was a child abuse social worker. I was a 
foster care social worker. And, you know what, I still am. And, 
now a social worker with power.
    I think all of us here, want to pledge to you that what 
you've established, we're going to continue. I hope, over the 
next day or two, to talk to Senator Harkin about assuming the 
leadership of this subcommittee.
    Senator Dodd. Good.
    Senator Mikulski. And to take, really, my passion, my 
experience with your legacy, and to meet these challenges; God 
knows, that our children are going to count on us. But, they're 
going to count on the men and women of the Senate to really 
stand up for them. And we want to stand up for them the way 
that you've done.
    As I said, this is not going to be an Irish wake.
    Senator Dodd. No. We love Irish wakes.
    Senator Mikulski. I can assure you we're not going to do an 
Irish wake for you or a Polish wedding for me.
    [Laughter.]
    We're going to make a wish. I think all of us on the 
committee would just like to give you a round of applause.
    [Applause.]
    Senator Dodd. Ah, that's very nice, thank you. Thank you. 
That's good. OK, thank you.
    I'm tempted to just keep on hearing from my colleagues, but 
we have some witnesses here this morning as well, and I'm 
delighted all of them are here.
    Any quick comments--not on this subject matter. Bernie any 
thoughts on the subject matter, I appreciate it.

                      Statement of Senator Sanders

    Senator Sanders. Very briefly, this is a great panel, and 
thank you for assembling it.
    Thank you, Chris, for the work that you've done with kids 
for so many years.
    Let me be very blunt and to the point. Compared to the rest 
of the industrialized world, we are failing, failing, failing 
our children. The way we treat our children in this country is 
a national disgrace.
    How can we be proud and serious as Americans, when in this 
great country we have, by far, the highest rate of childhood 
poverty in the industrialized world?
    How can we be proud that 30 percent of our kids are 
dropping out of high school? In Vermont, I'm told half of those 
kids end up within the jail system.
    We are building more and more jails, and yet, we are not 
giving educational opportunity to kids. Our child care system 
is a disaster.
    In my State it is virtually impossible for a working-class 
person to find decent quality, affordable child care. We pay 
child care workers, who probably do more important work with 
young people than college professors. Many of them leave child 
care to get a boost in salary by working at McDonald's; all 
right?
    We have, in this country, the most unequal distribution of 
income. I recommend the piece by Nick Kristof in the New York 
Times today called ``Hedge Fund Republic--top 1 percent earns 
23 percent of all income in America.''
    We have people here in the Congress who think good public 
policy is to give $700 billion in tax breaks to the top 2 
percent, and you've got hundreds of thousands of children who 
are homeless in America today.
    If this great country has a future, there's one thing we 
have got to do, is completely change our attitude toward kids; 
they are the future of America, and we cannot continue to 
ignore them.
    Chris, thank you for the work----
    Senator Dodd. Thank you.
    Senator Sanders [continuing]. You've done, but we've got a 
heck of a lot of work in front of us.
    Senator Dodd. Yes, you do.
    Anyone else here? If not, we'll go to our witnesses, Kay 
and Bob.

                       Statement of Senator Casey

    Senator Casey. Chris, thank you very much--Mr. Chairman, I 
should say. I was hoping you'd be 5 minutes late today, because 
I was going to be sitting in for 5 minutes, but it didn't work 
out that way.
    We're grateful, grateful for our witnesses who have labored 
in these vineyards a long, long time. We can learn a lot today; 
that's why I won't provide an opening. We'll submit it for the 
record.
    But, I was thinking today, in the scriptures there's a line 
that goes something like: ``A faithful friend is a sturdy 
shelter.'' The children of this country will always need, 
especially now, at a difficult time for our country, a faithful 
friend. The question is, will this Senate, will this 
government, will this country be that faithful friend?
    They have had that faithful friend in the person of Chris 
Dodd for all these years, and for that, and so many other 
reasons, we're going to miss him; we're going to continue to be 
inspired by his work; and we're going to continue to call upon 
him to help us.
    Thank you.
    [The prepared statement of Senator Casey follows:]

                  Prepared Statement of Senator Casey

    Thank you, Senator Dodd, for holding this hearing today. On 
this last hearing of the Subcommittee on Children and Families 
this Congress, I want to thank you for your outstanding 
leadership on children's issues over the past three decades 
here in the Senate.
    No one has done more to represent children. You started the 
Children's Caucus here in the Senate, along with Senator 
Specter, and, since that time, have worked tirelessly to 
advance legislation to strengthen American families and help 
children.
    Be it the Family Medical Leave Act, Head Start and the 
Child Care Development Block Grant, the Child Abuse Prevention 
and Treatment Act, the Children's Health Insurance Program--or 
any number of other programs--you have helped to lay a 
foundation for American families to thrive and be protected 
when times are tough, as they are now.
    This is work that will live on well after your time here 
and that I am committed to continuing.
    I am delighted to be partnering with you on the Children's 
Act of 2010--a piece of legislation that, I believe, will 
provide us with an opportunity to help a new generation of 
children and families.
    This legislation will establish a National Council on 
Children comprised of experts in children's issues--people with 
deep knowledge and on-the-ground experience--who can help our 
Nation, and leaders in the public, private and non-profit 
sectors, understand what can be done to ensure that this 
generation of kids has as many if not more opportunities to 
succeed as previous generations, even in spite of the unique 
challenges they face.
    New Census figures indicate that more than one in five 
children in the U.S. is living in poverty, rising from 13.3 
million in 2007 to 15.5 million in 2009.
    This is not a remote threat. It is real. Parents have lost 
jobs--we have the highest long-term unemployment rate since the 
Great Depression.
    The U.S. economy is creating jobs for the first time in 4 
months, with an increase of 151,000 jobs last month.
    This is good news, but we need to keep it up and we cannot 
forget that children are still in grave need of help.
    A new study from the Children's Hospital of Philadelphia, 
which looked at this recession and past recessions, finds that 
even when the economy starts to recover, it often takes years 
for families to bounce back--and in some respects, children 
never fully recover.
    Just to share one fact from the report: In 2008, 1 year 
into the recession, 21 percent of all households with children 
were food insecure--the highest percentage since 1995.
    If a child does not eat, he or she cannot learn. If a child 
does not learn, he or she will not be as able to graduate, find 
a job and become self-sufficient and productive. This is a loss 
of potential--or to use economic terms, human capital--that 
hurts us all.
    That's why when we are talking about what can be done to 
grow our economy, we should talk about short-term actions we 
can take, but we must think about the long-term too. That is 
what I hope that this new Council will be able to accomplish, 
as children are the future of this country.
    I look forward to hearing from the panel today their 
thoughts on what actions we can take to comprehensively address 
challenges and improve the lives of children across the United 
States.
    Senator Dodd. Thank you, Bob, very much.
    All right, I think we'll get to our witnesses here. This is 
turning into a hearing--it isn't an Irish Wake which is--we 
love Irish Wakes, by the way. I'm a big fan of them, I tell 
you.
    I'm going to introduce our witnesses, and they are a 
remarkable group of people, and people I've worked with for 
years, and years, and years; and so it's a very special day, 
indeed, to have them here at the last of my hearings.
    Beginning with Marian Wright Edelman, who's been a friend 
for more than 30 years, founder of the Children's Defense Fund, 
as all of you know in the room; the first African-American 
woman to be admitted to the Mississippi bar. She directed the 
NAACP's Legal Defense and Educational Fund in Jackson; worked 
on the Poor People's Campaign that Dr. Martin Luther King 
founded before his death; and has been just a remarkable 
individual.
    Countless times we've held, publicly and privately, 
hearings and discussions. I know her family. Her husband's here 
with us today, Peter. In fact, in a way, this is a homecoming, 
I should point out to you, because Peter--I'll introduce in a 
minute--actually worked for Robert Kennedy, who was on this 
committee, and was sent down to Mississippi to do a little work 
on poverty. And he met a nice young woman in Mississippi named 
Marian Wright, and they became husband and wife.
    So in a sense, Peter used to sit behind the chair here, and 
that's how he met Marian.
    Today, they're back again. And I thought, what an 
appropriate conclusion bringing this full cycle, to have them 
both here today to talk about the issues which they both are 
committed much to.
    Jennifer Garner is with us. Jennifer, we thank you 
immensely. I've had, really, the privilege of getting to know 
Jennifer and meeting with her and talking with her about her 
commitment to these issues; and certainly is well-known as an 
artist, and a very fine one, indeed, but decided to take that 
celebrity status and do something with it beyond just the 
awards and recognition you get for that work.
    I commend you highly for that.
    She has done a tremendous job working with To Save the 
Children.
    I mentioned earlier, of course, it was the enthusiasm and 
the vitality of a guy named Sarge Shriver in the Johnson 
administration that really had so much to do with igniting the 
fires back in the 1960s to do so much.
    Save the Children is run by Mark Shriver, who is in the 
room with us somewhere. I don't see him.
    Mark, why don't you just raise your hand? Where are you? 
You're right there. Mark is here. I teased him. I was going to 
threaten to bring him up and be a witness.
    Mark is carrying on in the tradition of his dad and his 
mother in making such a difference. I can't tell you what a 
tremendous job Mark has done in leading Save the Children, and 
the work they're doing; and Jennifer's work with them as well, 
being an ambassador for Save the Children.
    I gather, in fact, you're going to be, today or tomorrow, 
going back to your home State of West Virginia to open up a 
Head Start Program down there as well. And so, her commitment 
goes back to her State, which certainly understands the issue 
of wrestling with poverty and related issues.
    Jennifer, we thank you very, very much for being with us 
here today.
    Dr. David Satcher, you've heard, already, Lamar Alexander 
make reference to. Dr. Satcher is the 16th Surgeon General of 
the United States, 1998-2002; and as the Director of the 
Centers for Disease Control and Prevention from 1993 to 1998, 
under his leadership the Department of Health and Human 
Services took the bold step of establishing a national goal of 
eliminating health disparities as one of two overreaching goals 
for the United States to achieve by 2010. He's a former Robert 
Wood Johnson Clinical Scholar and Macy Faculty Fellow.
    We're delighted, Doctor, that you're here with us today.
    Helen Blank and I have known each other forever. I don't 
remember a time not knowing Helen since I arrived in Congress. 
Director of the Leadership and Public Policy at the National 
Women's Law Center; her career is focused on expanding support, 
especially for Federal and State levels, for positive early 
care and educational experiences.
    The Child Care Development Block Grant Program would not 
have happened. I offered the legislation, but I had an ally 
named Helen Blank, who really made all the difference in the 
world years ago, working with Orrin Hatch, as my partner in all 
of that, to develop that legislation.
    While a lot more needs to be done, as Bernie points out 
eloquently this morning, we established a program, but in terms 
of providing the resource capacity and others, we still have a 
long way to go. The structure is there, if we're willing to 
provide the resources for it to make it happen.
    Helen, we thank you very, very much.
    Peter Edelman, I've already referenced; professor of law, 
co-director of the Joint Degree in Law and Public Policy 
Programs and the faculty director of the Center on Poverty, 
Inequality and Public Policy at Georgetown University Law 
Center; served in the Clinton administration as counselor to 
the HHS Secretary, Donna Shelala, and then as Assistant 
Secretary for Planning and Evaluation.
    I might point out he courageously resigned back in those 
days when the Administration--over the issue of welfare reform, 
as a protest over his belief that the law would move our 
country in the wrong direction when it comes to children. 
Unfortunately, facts have proven him to be correct, in my view.
    Over a long career, Peter Edelman has been a champion for 
our Nation's poorest children; and of the saving and 
strengthening of the social safety network will be his 
testimony today.
    To have Peter and Marian here today is very, very special, 
indeed.
    Dr. Michael Casserly. Lamar introduced Dr. Casserly, and he 
has been talking about you a lot, I can tell you, over the time 
that he and I have been friends together.
    Dr. Casserly is the executive director of the Council of 
the Great City Schools, the Nation's primary coalition of large 
and urban public schools. He has unified urban schools and 
nationwide around a vision of reform and improvement. He's 
currently spearheading efforts to boost academic performance in 
the Nation's large city schools, and strengthen the management 
and operations of those systems.
    We thank you very much, Doctor, for being with us today.
    Marian, we'll begin with you. I'll ask all of you to try to 
keep your remarks down to about 5 minutes or so, and then we'll 
submit and have for the record any testimony and supporting 
documents and information to strengthen the record as well.
    We thank you immensely, once again, for appearing before 
this committee.

  MARIAN WRIGHT EDELMAN, PRESIDENT, CHILDREN'S DEFENSE FUND, 
                         WASHINGTON, DC

    Ms. Wright Edelman. Well, I thank you immensely for all 
you've done. If I might add, I came here today to thank you, 
and to tell you we're never going to let you go, and you have 
to remain a leading voice for children outside the Congress as 
you have been inside the Congress.
    I was sitting here thinking, the first time I think I ever 
came to the Senate was in 1964 as a young lawyer to visit your 
father on the Renewal of the Mississippi Summer Project.
    I know how proud he would be of the extraordinary record 
you have made. You have done him, as well as all of us, proud, 
and I thank you. You have been a consistent 100 percent scorer 
on the Children's Defense Funds, Children's Voting Record; and 
again, I thank you for being that perfect student. We will miss 
you so much. We are so grateful for all you've done; and we 
will all put in the record on all you've done on children's 
health, on child care and the Family Medical Leave Act.
    We've also just loved you. You have just been somebody 
who's accessible and easy to work with. And so, thank you.
    So, all that progress said, we are, I think, faced with an 
extraordinarily difficult time for children in America now. 
They have only one childhood and that childhood is now. And 
millions of our children in this Nation require emergency 
attention in this recession- ravaged economy as poverty, and 
including extreme child poverty, hunger, and homelessness have 
increased to historic levels, if irreparable harm is not to be 
inflicted on them and on our Nation's future.
    I sound like a broken record, but the greatest threat, I 
believe, to our national security comes from no enemy without. 
It comes from our failure to protect, invest in, and educate 
all of our children who make up all of our futures.
    Children and the foundations of America's future, the 
foundation is crumbling. You don't say you can't afford to take 
care of it, and you don't deflect resources from what they need 
in investment, to give tax cuts to millionaires and 
billionaires. That defies economic, common and moral sense.
    It's a disgrace that children are the poorest age group in 
America, and the younger the children are, the poorer they are.
    We rank highest among industrialized countries in relative 
child poverty. That is unworthy of us. And we rate last in 
terms of gun violence, in protecting our children and keeping 
them safe.
    Children in America are three times more likely to die from 
gun violence than American soldiers in Afghanistan. I just 
think that we need to focus on safety and national security 
within, as well as from without.
    Our Nation's schools: Many of our Nation's schools, public 
schools are letting all of our children down. A majority of all 
children in all racial and income groups cannot read or compute 
at grade level in 4th, 8th, or 12th grade if they have not 
already dropped out of school, and about half of our minority, 
Black young people, are not graduating from schools.
    Worrisome, as a Black woman and as a mother, the fact that 
over 80 percent of Black and Hispanic children cannot read or 
compute at grade level in 4th, 8th, or 12th grade, is just 
beyond comprehension.
    These children are being sentenced to social and economic 
death.
    And, you've got a child population, the majority of them 
can't read and write in this globalizing economy, where is our 
competitive workforce going to come from? I mean, I say these 
things all the time, but I never can believe I'm actually 
saying these figures, and they are reality and we had better 
change them because they are the moral and Achilles' heel of 
this country.
    They got between rich and poor. We've already heard 
eloquently of highs we've ever had; the combined net worth in 
the United States, 408 billionaires is almost $1.5--$4 trillion 
a year.
    I can't believe that we're sitting here thinking about 
giving them another tax break. This is more than the combined 
GDP of 134 countries with more than a billion people.
    I looked at 2008, because we really need to get our values 
straight, saw that the highest paid American CEO took home over 
$100 million, which is an amount equal to the salaries of 2,028 
elementary school teachers, or 3,827 Head Start teachers, or 
5,274 childcare workers.
    We need to reset our moral and economic compass to invest. 
We don't have a money problem; we have a values problem, a 
profound one. We have profound priorities problem, and we need 
to deal with this.
    I just want to talk about the Cradle to Prison Pipeline 
very briefly. I know I'm being warned with my gold light here. 
This Cradle to Prison Pipeline, which is trapping one in three 
Black boys born in 2001, one in six Hispanic boys born in 
2001--is creating a new American apartheid; and prison is the 
only thing--in fact, the only thing that this country will 
guarantee every child, is a detention or a jail cell after they 
get into trouble.
    I can't think of a dumber investment policy.
    We really need to reverse course and to guarantee them the 
kind of prenatal and preventative health care, and mental 
health care, and quality early childhood, and quality education 
that we need if we're going to move forward. We can and must do 
better.
    I just want to make a few suggestions that I'm submitting 
for the record, some suggestions of what we ought to do as we 
reauthorize title I, and investing more in early childhood; 
obviously, the Child Tax Credit, the Unearned Income Tax, 
Poverty Prevention measures need to be there.
    But in your National Council and your National Council of 
Children, which I just heard about, I hope that one of the most 
important things you can do is figure out how to get the 
Congressional Budget Office to score prevention as a savings 
and not as a cost, because we cannot win.
    And, if we can figure out a way to have us quantify how 
much is saved to cover it, and it's common sense, I mean, not 
have children stay in long-term care, and not have them miss 
healthcare.
    If we could begin to quantify prevention, invest the 
measure we're going to use to make our decisions, I hope that 
the Council could take that one on. It would be one of the most 
important things in the world, and, to set specific goals, and 
to have benchmarks toward how much we're meeting those goals.
    Let me just end with a story, because I just think children 
are going backwards.
    I thought that the American dream was about seeing our 
children and grandchildren doing better than we do. And, it's 
reversed, and we really do need to deal with that.
    We are going to be calling together Black leaders in 
December at the Haley Farm, because we think that the Black 
child faces the worst crisis since slavery.
    Black children and Hispanic children and white children are 
moving backwards, and we really need to try to see if we can 
reverse this trend or these trends.
    I come from a little rural county in South Carolina, and I 
would just end with a very disturbing, short story. One Black 
minister called me up and said he just talked to three teenage 
boys, 12, 13, 14, and asked them what they wanted to be when 
they grew up; and one boy said, I want to work at McDonald's.
    The second boy said, I want to be Spiderman, and when 
pushed he couldn't think of a known profession that he would 
have, because many children have never seen anybody work in our 
inner cities and poor rural areas. Work is just not--and we 
need to focus on jobs for these children and for their parents, 
and for young people.
    And the third child said that he drew a picture on the 
ground and said, ``Well, I don't have to worry about what I'm 
going to be when I grow up, because I'm not going to grow up. 
I'm going to be dead.''
    This is not America's dream. This is not Dr. King's dream. 
This is not what we're about as a country.
    We just need to really stop and say, what is important? Who 
are we as a people? And, how are we going to make sure that we 
prepare our children for the next generation; and more 
importantly, to make sure that our children are there to make 
our country strong.
    Without the strong child population, without educated 
children, the country is not going to be where we need to be in 
the future.
    Thank you for what you've been doing. We've got a lot of 
work to do.
    [The prepared statement of Marian Wright Edelman follows:]

              Prepared Statement of Marian Wright Edelman

    Thank you Chairman Dodd, Senator Alexander and other members of the 
Subcommittee on Children and Families.
    I am Marian Wright Edelman, president of the Children's Defense 
Fund, and I am so honored to be able to join you for this important 
hearing focused on the ``State of the American Child: Securing Our 
Children's Future.'' Your leadership in the Senate on behalf of 
children, Senator Dodd, has been so important to millions of children 
over these past three decades. You have shown us what can be done for 
children--you are a champion for children indeed. We will miss you.
    Children have only one childhood and it is right now. Millions of 
children in our Nation require emergency attention in our recession-
ravaged economy as poverty, including extreme child poverty, hunger, 
and homelessness have increased to historic levels, if irreparable harm 
is not to be inflicted on them and on our Nation's future.
    The greatest threat to America's national security comes from no 
enemy without but from our failure to protect, invest in, and educate 
all of our children who make up all of our futures. Every 11 seconds of 
every school day a high school student drops out of school; every 32 
seconds a baby is born into poverty; every 41 seconds a child is 
confirmed abused or neglected; every 42 seconds a baby is born without 
health insurance; every minute a baby is born to a teen mother; every 
minute a baby is born at low birthweight; every 3 hours a child or teen 
is killed by a firearm. A majority of children in all racial and income 
groups cannot read or do math at grade level in 4th, 8th or 12th grade 
and over 80 percent of Black and Hispanic children, who with other 
minority children will constitute a majority of our population in 2023, 
are behind in these grade levels--if they have not already dropped out 
of school.
    If the foundation of your house is crumbling, you don't say you 
cannot afford to fix it. Children are the foundation of America's 
future. We need to invest now in their health, early childhood 
development and education. Today is tomorrow.
    God has blessed America with great material wealth but we have not 
shared it fairly with our children and our poor. Although we lead the 
nations of the world in Gross Domestic Product (GDP), in billionaires, 
and in military technology, defense expenditures and military exports, 
our money and our military might have not translated into moral might, 
adequate child safety and well-being, and a concept of enough for those 
at the top and at the bottom.
    Children are the poorest age group and the younger children are, 
the poorer they are. We rank highest among industrialized nations in 
relative child poverty and in the gap between rich and poor, and last 
in protecting children against gun violence.
    The gap between the rich and the poor is the highest ever recorded 
in America. In the 1960's, when the economy was expanding, about two-
thirds of the Nation's income gains went to the bottom 90 percent of 
U.S. households. In the first half of this decade, it was just the 
opposite: the wealthiest 1 percent reaped two-thirds of income gains. 
Between 2002 and 2007, the income of the wealthiest 1 percent of U.S. 
households grew more than 10 times as fast as the income of the bottom 
90 percent. In 2007, the income share for the wealthiest 10 percent of 
households, 49.74 percent, was the highest ever recorded.
    In 2008, the highest-paid American CEO took home over $100 million, 
an amount equal to the salaries of 2,028 elementary school teachers, or 
3,827 Head Start teachers, or 5,275 child care workers. The average CEO 
of a Fortune 500 company earned 319 times as much as the average 
worker. The combined net worth of the United States' 408 billionaires 
is $1.3493 trillion--greater than the combined GDP of 134 countries 
where more than a billion people live.
    This fiscal year, the Department of Defense is scheduled to spend a 
total of $683.7 billion. This is $13.1 billion a week; $1.9 billion a 
day; $78 million an hour; $1.3 million a minute; and $29,679.13 a 
second. Just one second of defense spending is more than a Head Start 
teacher earns in a year. Yet our children are three times more likely 
to die from firearms at home than American soldiers who are fighting in 
the Afghanistan war. Headlines blazed across America in June 2010 when 
America's military death toll in Afghanistan reached 1,000 after 9 
years of that war. No headline blazed when CDF released the disgraceful 
annual numbers showing more than 3,000 children--3,042 children in 
2007--dying in the gun war at home. Six times as many nonfatal child 
gun injuries occurred that year.
    The terrible Taliban terrorist threat to American child and citizen 
safety is rivaled by the terrible NRA threat which terrorizes our 
political leaders from protecting our children from the over 280 
million guns in circulation which have taken over 110,000 child lives 
since 1979, when gun data collection by age began. More American 
preschool children died from guns in 2007 than police officers in the 
line of duty and more Black male youths die in 1 year from guns than 
all the lynching of Black people in American history. But where is our 
anti-war movement at home?
    And where is our anti-poverty movement at a time when 1 in 50 
Americans, a New York Times front page story tells us, has no cash 
income? ``Almost six million Americans receiving Food Stamps report 
they have no income. They described themselves as unemployed and 
receiving no cash and no welfare, no unemployment insurance, and no 
pensions, child support or disability pay. About 1 in 50 Americans now 
lives in a household with a recorded income that consists of nothing 
but a Food Stamp card,'' the New York Times' Jason DeParle reported.
    This shocking New York Times article provoked no public outcry, 
action or shame. It did not stop some political leaders from trying to 
block extension of unemployment insurance benefits and to block more 
Federal dollars to protect or create jobs, to expand tax credits for 
working families desperately trying to feed, house and clothe their 
children, or to increase investments to stimulate an economy struggling 
to recover with 14.8 million workers still unemployed and massive State 
deficits which will cause more job loss. How morally obscene it is that 
a nation with a GDP exceeding $14 trillion cannot find the will, common 
sense and decency to provide a safety net to protect its more than 15 
million poor children. The subcommittee learned from Elaine Zimmerman, 
the executive director of the Connecticut Commission on Children, at an 
earlier hearing and again when you took your field trip to Connecticut 
that the legislature there enacted a bill to cushion its children from 
the harmful impact of the recession by decreasing bureaucratic barriers 
to accessing a range of benefits and tax refunds. State leaders 
recognized that the impact of even short periods of poverty can have a 
long term--even permanent--effect on children pulled from the stable 
security of their home, school, and friends when families lose their 
homes and jobs and are forced to move in with others or into homeless 
shelters. The loss of a sense of safety amidst the turmoil of economic 
insecurity fuels stress for parents and children and breeds a sense of 
hopelessness about the future. Our leaders and citizens need to 
respond.
    This is a time when America can and must turn economic downturn 
into an opportunity to step forward to correct the gross imbalance of 
government subsidization of the wealthiest and most powerful among us 
and provide a safety net for all children from growing hunger, 
homelessness and stress. A college student working three jobs in 
Connecticut, causing her to make lower grades, feels she will never be 
able to get into medical school and fulfill her dream of becoming a 
doctor. Teenagers are leaving home to ease the burdens on their 
unemployed parents. Now is the time to correct the laissez-faire 
Federal policies that enabled the few to run roughshod over the life 
savings of many hard working Americans and wreck the lives and dreams 
of millions of children. And now is the time to replace the costly, 
ineffective, unjust and abusive child and youth policies which favor 
punishment and incarceration and cost tens of billions of tax payer 
dollars with more cost-effective prevention and early intervention 
strategies, based on best practices that put children on the path to 
healthy adulthood rather than into the adult criminal system.
    We are the world's leading jailer and are criminalizing our poor 
and minority children at younger and younger ages--both shameful badges 
of misguided and negative leadership. A Cradle to Prison Pipeline 
crisis, driven by poverty and racial disparities, is becoming the new 
American apartheid threatening to undermine the hard earned racial and 
social progress of the last half century. The prison pipeline sucks 
hundreds of thousands of children every year into a trajectory that 
leads to marginalized lives, illiteracy, imprisonment and often 
premature death. Nationally, one in three Black and one in six Latino 
boys born in 2001 are at risk of imprisonment during their lifetime. 
There are more Black citizens under the purview of the corrections 
system today than there were Black people in slavery 10 years before 
the Civil War according to legal scholar Michelle Alexander in her 
important book, The New Jim Crow: Mass Incarceration in the Age of 
Colorblindness.
    The Federal Government is spending $6.2 billion and States are 
spending $50 billion a year to incarcerate 2.4 million people. States 
are spending on average three times more per prisoner than per public 
school pupil. New York State spends $210,000 a year on youths in 
abusive and ineffective upstate New York youth prisons. Black children 
are 32 times more likely than White children to be incarcerated. 
Seventy-five percent of them have committed nonviolent offenses and 
pose no threat to public safety--until they come out. This 
unjustifiable profligate State youth prison spending of $210,000 per 
youth--the equivalent of 4 years at Harvard or Yale--is simply 
underwriting abusive prep schools for the adult criminal system. Their 
recidivism rate is 75 percent. Their results threaten rather than 
increase public safety and derail so many youthful lives. There are far 
cheaper and more effective community-based alternatives that help 
rather than hurt children.
    It is time to replace the costly, ineffective and destructive 
prison pipeline with a pipeline to college, career and productive work 
for all our young people. We cannot afford not to provide a healthy, 
fair and safe start for every child and a continuum of support with the 
help of caring families and communities to enable them to reach 
productive adulthood. You have already heard researchers speak to how 
dumb and costly our failure to invest early in children is. Building on 
best practices and accelerating help children and their families need, 
especially as we move out of this deep recession, is the right and 
economically wise thing to do in a decent society. Saving child lives 
early and saving money go hand in hand.
    The Children's Defense Fund posted earlier this year our State of 
America's Children 2010, which is a call to action for us all to stand 
up and demand an end to the massive child suffering around the Nation. 
The catastrophic BP oil spill's assault on our environment was an 
urgent national emergency. But so is the catastrophic impact of this 
recession and the chronic plight and suffering of millions of children 
left adrift in a sea of poverty, hunger and homelessness and political 
neglect. Congress must see the recession and its aftermath as an 
emergency for children and take action for our children. We must secure 
our children's futures and our Nation's future.
    The selfish and reckless profiteering of Wall Street bankers who 
are still living high need to be adequately regulated--to prevent a 
repeat economic catastrophe. And wounded children losing teachers and 
days of schooling and safe spaces after school and in the summer, and 
enough food and safe housing need equal priority attention by their 
government. If we could bail out bankers to steady the economy, we can 
bail out babies who without our help will see their hopes and dreams 
for a better life wiped out. Denying children their basic human rights 
to adequate nutrition, health care, education, and safety from adult 
neglect, abuse, and violence should be a no-brainer.
    I grew up in a small rural county in South Carolina which I still 
call home. Marlboro County has a population of about 30,000: 52 percent 
African-American; 42.5 percent White; and 3.7 percent American Indian 
and Alaska Native. Our unemployment rate at last look was 20 percent. A 
Federal and a State prison are among the county's largest employers. I 
was deeply saddened by a recent story of three young teen boys in my 
county who were asked what they wanted to be when they grew up. The 
first boy said he wanted to work at McDonalds; the second boy said he 
wanted to be Spiderman and when pushed for a real person, he could not 
think of one; and the third boy drew a boy lying on the ground and said 
he was going to be dead before he grew up.
    This is not Dr. King's dream. This is not America's dream. This is 
not my dream for them. We can and must do better.
    Thank you.

    Senator Dodd. Thank you, Marian, very, very much. I'm 
struck--and many members of this committee will recall back 
when we had the healthcare debate, back to this committee, and 
the bill we marked up, one of the things we tried to do was to 
score savings.
    We all knew how to cost the purchase of a treadmill--to 
cite a silly example, obvious one. The question we never could 
get anyone to do was to tell us, now what would be the cost 
saved if someone uses it and actually loses weight, becomes 
healthier and all the other aspects of it. We never could score 
that. All we could score was the cost of the equipment, not the 
cost of the benefit to the people who use it and actually 
improve their health.
    This is a classic problem we have, and one that, I think, 
deserves a great deal of attention.
    We thank you very, very much for that.
    Jennifer, thank you again for joining us today, and we 
would be delighted to hear your thoughts this morning.

   STATEMENT OF JENNIFER GARNER, ARTIST AMBASSADOR, SAVE THE 
                   CHILDREN, LOS ANGELES, CA

    Ms. Garner. Distinguished members of the subcommittee, I am 
honored to be here today and to be joined by this panel of 
truly amazing advocates on behalf of America's children. It's 
an education for me, so thank you.
    Before I begin, I want to take a moment to thank you, 
Chairman Dodd, not only for inviting me to participate in 
today's hearing, but also for your nearly four decades of 
dedicated service on behalf of children. We couldn't have asked 
for a stronger advocate on the side of our Nation's children, 
and personally speaking, I know you to be an excellent lunch 
partner, and I'm sure that that will be missed as well, your 
guests in this Senate lunchroom.
    Your leadership to form the first Children's Caucus led the 
way toward stronger national investments in early childhood 
education and child care programs, as well as landmark 
legislation that gave parents the right to take time off from 
work to care for a new baby, which we all know is the most 
critical time.
    From the perspective of this witness your legacy on behalf 
of our Nation's children is simply undisputed. Thank you.
    Senator Dodd. Thank you.
    Ms. Garner. Senator, as you mentioned, I am proud to be a 
member of the team at Save the Children's U.S. Programs, and 
I'd like to acknowledge my partner in this endeavor, Mark 
Shriver, who is Head of U.S. Programs.
    Thank you, Mark, for your leadership and your mentorship 
and your friendship.
    He's also a good lunch partner, just for the record.
    Members of this subcommittee, I am here as an advocate, as 
a plain, old ordinary citizen, and perhaps, most important, as 
a mom.
    For me, reading to my daughters, singing with them, playing 
with them, is as elemental to my daily child rearing as feeding 
them and going on the carpool run.
    This morning, my 1\1/2\-year-old has been sending me voice 
notes on my Blackberry requesting me to send voice notes back, 
of her favorite songs like, ``I Love You a Bushel and a Peck'' 
or ``Owl and the Pussy Cat.''
    But, if you're one of the millions of American parents 
struggling with the recession or the poverty crisis, you're 
thinking about just keeping your kids fed and clothed. You're 
not singing show tunes in your house.
    Many of these children's families face challenges that 
often seem insurmountable. Chronic unemployment, incarceration, 
domestic violences are often the main risk factors.
    I'd like to share a short story with you from one of my 
site visits with Save the Children.
    Last April, as part of my work for Save the Children, I 
visited the home of Teresa Fugate and Michael Blanton, a 
struggling, to say the least, couple raising four young 
children, age 3 to 7 in Breathitt County, KY, one of the most 
impoverished communities in America.
    The Blantons live in a small trailer where the main source 
of heat is an open oven door, around which the children play. 
Their empty window panes were covered by cardboard.
    This woman, Teresa, was a smart, American woman. She loved 
her kids as much as I love my kids. She wanted for them 
everything that I want for my kids. She had just fallen on bad 
luck. That is the only difference between us. She looked like 
me; she sounded like me. If she had hair and makeup this 
morning, she could be sitting right here and talk about 
children with a lot more knowledge than I could.
    She saw Save the Children as a lifeline for her children. 
Save the Children comes into her home; it works with her 
children; it gives her the actual, physical tools of toys and 
books, to read with and play with her child; encourages her to 
play with her youngest children; is at school with her older 
ones, working with them in the literacy programs.
    Unfortunately, in this community that is absolutely steeped 
in despair, this actual Teresa Fugate died in a random shooting 
by her trailer, by a man who was frustrated that his wife had 
not made him the breakfast that he requested.
    Now, obviously, anything could have set this man off. 
Anyone could have died in this shooting, but I think it is 
emblematic of the kind of despair that these communities--these 
children are growing up in.
    We need to give them light. We need to give them something 
to hold on to--if it's Save the Children, if it's Children's 
Defense Fund. They need something in their future to point them 
in a direction.
    Obviously, you know 90 percent of our brain growth occurs 
between birth and 5 years of age, so the words a toddler hears, 
the music that makes them sing and dance--and wake up singing--
the games they play, build the foundations for their education.
    Two out of five preschool-aged Americans are being denied a 
lifetime of success because they are not getting the Early Head 
Start or the preschool or any kind of stimulation until they 
enter kindergarten, and by that time they're so far behind, 
they're playing catch-up from the beginning. And, what child 
can start out 2 years behind in kindergarten and catch up? I'd 
like to see them succeed at this.
    Every parent should be armed with the tools they need; 
books, music, games, to be the best parent they can be and keep 
their children stimulated at home.
    There's action being urged right now by Save the Children's 
U.S. Programs and our partners at the First Five Years' Fund 
that can begin to make a difference.
    I hope that Congress will act immediately in this November 
session to fully fund the Child Care and Development Block 
Grant and Head Start in the fiscal year 2011 appropriations.
    We also need to make a down payment on the Early Learning 
Challenge Fund, an $8 billion proposal to promote innovative 
models for early childhood education by providing the $300 
million the Senate Appropriations included in this next year's 
spending bill.
    Save the Children's Early Steps to School Success, Early 
Childhood Education Programs, operates in almost 100 of the 
poorest communities in America, including, as I mentioned, in 
Breathitt County, KY.
    And, tomorrow we will head to my native home, West 
Virginia, to officially open our programs there.
    We go to the homes, in these programs, such as the 
Blantons, and work directly with the parents. And, paired with 
our in-school literacy program for elementary-aged kids, we're 
putting some of the most vulnerable kids on the path to 
success.
    In fact, I'm proud this morning to announce brand new 
results from our programs across the board. Children in our 
literacy programs improve their reading skills as much as if 
they had attended an extra 4 months of school per year. The 
number of children reading at or above grade level nearly 
doubled after they participated in our program. Sixty-four 
percent of children showed significant improvement in their 
literacy scores. Children in our Early Education Program scored 
right in line with the national average on key vocabulary 
tests, and scored significantly higher than children in Early 
Head Start.
    These are extraordinary results, especially considering the 
circumstances faced by many of the children that we serve.
    The Brookings Institute estimates that a deep and truly 
serious investment in early childhood education would add $2 
trillion to the gross domestic product within a generation. 
This would be an incredible return on investment that would, in 
the future, help solve many of the problems our Nation is 
struggling with today.
    Now is the time to give every American child an equal start 
in life by investing in early childhood education.
    Thank you for inviting me here today.
    [The prepared statement of Ms. Garner follows:]

                 PREPARED STATEMENT OF JENNIFER GARNER

    Mr. Chairman, distinguished members of the subcommittee, I am 
honored to be here today to testify about the power of investing in 
early childhood education.
    I am proud to be a member of the team at Save the Children's U.S. 
Programs and I want to acknowledge my partner in all this work, Mark 
Shriver, who is the head of U.S. Programs.
    If you have children under six like I do, reading them Baby Bear, 
Baby Bear, What Do You See?, listening to Mozart or playing Candyland 
is probably as elemental to your daily child-rearing routine as feeding 
them carrots or changing their diapers.
    However, for millions of American parents struggling with the 
recession or affected by the poverty crisis that the Census Bureau 
recently revealed to be at historic levels, these kinds of activities 
are often financially impossible or they simply take a backseat to 
keeping a family fed and clothed.
    Denying children early education activities robs them and their 
families of a brighter future and locks the American cycle of poverty 
into place.
    Indeed, stimulating toddlers with reading, music and games provides 
them with the foundation for the next two decades of their education.
    Ninety percent of our brain growth occurs between birth and 5 years 
of age. Thus, the words a toddler hears, the music that makes them tap 
their feet and the games they play actually nourishes and builds their 
minds.
    Feed toddlers properly and their brains will be pumped up and ready 
for their K-12 education. Deprive them of this stimulation, and they're 
not ready for school, which is proven to lead to increased high school 
dropout rates, higher levels of incarceration and unemployment.
    Some very smart and visionary leaders, including Mark's father, 
Sargent Shriver, understood the value of early childhood education and 
created Head Start in 1965, which was followed up three decades later 
with Early Head Start.
    Still, Early Head Start reaches only 5 percent of eligible 
children, and only about half of the eligible population of 3- to 5-
year-olds receive Head Start services. Even paired with private 
preschools, only 3 out of 5 preschool-aged kids are enrolled in some 
sort of childhood education.
    That means two out of five pre-school-aged Americans are being 
denied a lifetime of success.
    That's two out of five too many.
    This should come as no surprise, as just 14 percent of our public 
education investment is directed toward children five and under.
    Simply put, it should be a right for every single toddler to be 
enrolled in a high-quality, early-education program. In addition, every 
parent should be armed with the tools they need--books, music and 
games--to be the best parents they can be and keep their children 
stimulated at home.
    There is action being urged right now by Save the Children's U.S. 
Programs and our partners at the First Five Years Fund that can begin 
to make a difference.
    First, I hope Congress will act immediately in this November 
session to fully fund the Child Care and Development Block Grant and 
Head Start in the Fiscal Year 2011 budget.
    If we don't take this action now, nearly 300,000 children could 
lose their early learning services.
    We also need to make a down payment on the Early Learning Challenge 
Fund, an $8 billion proposal to promote innovative models for early 
childhood education, by providing the $300 million the Senate 
Appropriations included in next year's spending bill.
    These funds will go a long way to supporting innovative programs 
like the ones we run at Save the Children's U.S. Programs.
    Our Early Steps to School Success early childhood education program 
operates in almost 100 of the poorest communities in America, including 
my native home of West Virginia.
    Through these programs, we go into homes and work directly with 
parents and have achieved extraordinary results. Paired with our in-
school literacy program for elementary-aged kids, we are putting some 
of the most vulnerable kids on a path to success.
    In fact, I am proud this morning to announce brand-new results from 
our programs.

    <bullet> Children in our literacy program improved their reading 
skills as much as if they attended an additional 4 months of school.
    <bullet> The number of children reading at or above grade level 
nearly doubled after they participated in our program.
    <bullet> 64 percent of children showed significant improvement in 
their literacy scores.
    <bullet> Children in our early education program scored right in 
line with the national average on key vocabulary tests, despite risk 
factors, and scored significantly higher than children in Early Head 
Start.

    These numbers are particularly impressive given the extraordinary 
challenges faced by the kids in our programs. Far too many of them come 
from homes where unemployment, poverty and even parents who are 
incarcerated are prevalent.
    The Brookings Institute estimates that a deep and truly serious 
investment in early childhood education would add $2 trillion to the 
Gross Domestic Product within a generation. This would be an incredible 
return on investment that would, in the future, help solve many of the 
problems our Nation is struggling with today.
    There is a decades old and very robust debate about the role of 
government in helping families living in poverty. But 3-year-olds don't 
even have boot straps to pull on.
    Now is the time to give every American child an equal start in 
life.
    Thank you for inviting me here today and I am very pleased to 
answer any questions that members of the subcommittee may have.

    Senator Dodd. Thank you, very, very much, Ms. Garner. We 
appreciate your being here. And good luck in West Virginia 
tomorrow, too--going back to your home State.
    Ms. Garner. Yes, thank you.
    Senator Dodd. Peter, thank you so much for joining us here, 
and I'm anxious to hear any thoughts you have.

 STATEMENT OF PETER EDELMAN, PROFESSOR OF LAW, GEORGETOWN LAW 
 CENTER AND FACULTY CO-DIRECTOR, GEORGETOWN CENTER ON POVERTY, 
         INEQUALITY, AND PUBLIC POLICY, WASHINGTON, DC

    Mr. Edelman. Well, thank you, Mr. Chairman.
    Senator Dodd. Thank you for your work over the years, as 
well. You've been a great advocate, and the combination of you 
and Marian has just been phenomenal on this subject matter.
    Welcome back to a committee you're familiar with.
    Mr. Edelman. Well, thank you very much, Mr. Chairman. I 
feel so honored to be part of this hearing this morning. As 
Marian said, speaking about your father and how this comes full 
circle for both of us. When I worked for Robert Kennedy, I 
worked very closely with your father and his staff--Senator 
Kennedy and Senator Dodd--on hearings about substance abuse in 
our country. And, so, I remember that very, very well. It was 
an initial baptism for me, if you will, in Senate hearing work; 
and here we are, coming all the way, full circle.
    I join everybody in speaking about the indelible mark, 
really, that you've left on our country.
    I'd like to put some of the conversation about children and 
early childhood that we've heard from Marian and Jennifer in a 
context.
    I think one very important piece to keep in mind--we've 
heard from Marian, from Senator Sanders, about how much of the 
income and wealth is stuck and concentrated at the top, and we 
absolutely need to address that for our future as a Nation.
    The other side of the coin is that the economic history 
over the last four decades has been one of near stagnation for 
people with jobs--not just the poor, but people with jobs that 
pay below the median wage, the entire bottom half, if you will.
    De-industrialization has really left us just awash in low-
wage jobs. And half the jobs in this country now pay under 
$30,000 a year. A quarter pay less than the poverty line for a 
family of four. Those are full-time jobs that I'm talking 
about.
    Children are now growing up in large numbers to get jobs 
that pay less than what their parents earn.
    That's the other side of the gap that's growing between the 
top and bottom. And, it's really important to understand why we 
haven't made more progress, with all the good work that's been 
done, in reducing poverty over the last 40 years.
    All of the programs and policies that you, Senator Dodd, 
Senator Mikulski--others who have been here for quite a while 
have--have contributed to, made a difference, made a huge 
difference in cushioning the damage that's been done by these 
massive changes in the economy. And, millions more people would 
be in poverty if we didn't have these programs and policies.
    In fact, one thing that just has struck me in the last few 
days--particularly now, with the struggle that so many people 
are having, but with the low-wage work, is President Obama's 
Debt Commission co-chair is proposing to make cuts in the 
Earned Income Tax Credit and the child tax credit, makes no 
sense whatsoever, not, really at any time, given this economic 
history, but especially now.
    There are a couple things that I would point out in terms 
of the history of, again, placing things in the history of the 
last 40 years, obviously, still questions of race, still 
questions of gender, that we've made progress about, but not 
nearly enough; the education of our children that Marian spoke 
of.
    I would particularly point out as an area where we just 
haven't figured out what to do, and haven't done nearly enough, 
is the concentrated poverty in our inner cities.
    That's where the highly controversial--the poverty that 
becomes politicized, where we hear all kinds of labels attached 
to people, and where, really, the concatenation of everything 
that's there in those neighborhoods and communities, is robbing 
children of their future.
    So, it's not just the schools; it's the criminal justice 
system; it's every aspect of community; it's the heart of where 
the crisis of young Black men is. It's not only young, Black 
men who are going to prison in too large numbers, but 
especially, it is that group.
    The heart of what we need to do for children and families 
is work that produces a decent income, coupled with work 
supports, proper safety net and all of that. We really have to 
understand that we have to have multiple strategies if we're 
going to deal with child poverty in this country.
    The strongest anti-poverty strategy is certainly full 
employment, but we have to do all of the rest.
    I just want to take a little different cut here for a last 
minute, and that is that we need to understand that in income 
terms, we really are talking about three different levels here: 
one, which--obviously, poverty itself, and the fact that so 
many of the poor actually have jobs. Sixty-one point six 
percent of the income of people below the poverty line comes 
from work. We don't recognize that; but, even more so, extreme 
poverty.
    We now have over 19 million people. Six point three percent 
of the American people live with incomes below half the poverty 
line; below $8,500 for a family of four. And, all that we have, 
essentially, to help them, is food stamps. We now have 6 
million people in this country who have no income other than 
food stamps. And food stamps only gives help at one third of 
the poverty line.
    Welfare, for all practical purposes, is gone as something 
to help people, in many, many parts of our country. In the 
State of Wyoming, next door to Colorado, Senator Bennet, in 
2008, 281 families in the entire State was on welfare. And 
that's not atypical as we look around the country.
    There's virtually no public attention to the issue of 
extreme poverty. We need to focus on it.
    And, on the other end, the working near-poor, really it--to 
make ends meet in this country, reams of research say it's got 
to be at least twice the poverty line. That's where the real 
break comes in, being able to pay the bills every month. And, 
we have not focused sufficiently. These aren't people who are 
poor. Maybe the poverty line's too low.
    You've worked on this, Senator Dodd, so much. But they are 
people who are in deep economic trouble, and it's the low-wage 
jobs and our inattention to all of that.
    I hope these framing thoughts are helpful. And, I would say 
again, Senator Dodd, we'll miss you terribly. I know you'll 
still be a voice and force for what we're doing. And the great 
progress that we've made--you contributed so much. And, so 
thank you again for the opportunity to be here this morning.
    [The prepared statement of Mr. Edelman follows:]

                  Prepared Statement of Peter Edelman

                                SUMMARY

    Thank you for the opportunity to testify at this, perhaps the last 
hearing Senator Dodd will chair as a Member of the U.S. Senate. 
Millions of American children and their families are better off for the 
phenomenal trail of achievement that Senator Dodd has blazed.
    The economic history of the past 40 years has been one of near-
stagnation for people with jobs that pay less than the median wage. De-
industrialization has left our country with a massive number of low-
wage jobs. Along with the further fact that virtually all of the 
economic growth over that period has gone to people with the very 
highest incomes, these facts are vital to understanding why we have not 
made more progress in reducing poverty over that time. The substantial 
funding that the Federal Government has provided to lower income people 
has cushioned the hurt occasioned by the massive changes that have 
occurred in our economy. Millions more families would be in poverty 
without those investments.
    Many other factors affect the level of poverty and who is poor. 
Race, gender, disability, marital status, education levels, where 
people live, and much more all matter. The heart of the answer is work 
that produces a decent income, coupled with work supports, a decent 
safety net, and educational opportunity, but the strongest antipoverty 
strategy is full employment. At the moment, it is vital to continue 
providing help for the millions who have been unemployed for a long 
time and still have no prospect of finding a job. Poverty has many 
faces and forms, so particular problems require particular solutions. 
Concentrated poverty in inner cities is one such problem.
    There are three distinct problems in terms of levels of income. In 
addition to better strategies to get people out of poverty, we need to 
pay far more attention to the 19 million people who live in extreme 
poverty, with incomes below half the poverty line, and to the 100-plus 
million people with incomes up to twice the poverty, who are not poor 
but whom extensive research shows have a continuingly difficult time 
making ends meet. At the lower end we need to be aware that 6 million 
people have food stamps as their only source of income, at about a 
third of the poverty line. And in light of the large number of 
Americans with low-wage work who get by only with federally financed 
income supplements, it was disturbing to see that the co-chairs of 
President Obama's debt commission are suggesting consideration of cuts 
in the Earned Income Tax Credit and the Child tax Credit.
    The responsibility for remedying poverty reaches far beyond 
government. Civic leaders, volunteers, and low-income people themselves 
have a responsibility. We need leadership to find common ground between 
those who stress public policy solutions and those who emphasize 
voluntarism and personal responsibility. All are germane to making 
progress.
    We celebrate Senator Dodd today. He has been in the forefront of 
almost everything good that has happened in Federal policy for children 
and families. I am deeply honored to be able to say to him directly and 
from my heart, thank you.
                                 ______
                                 
    Mr. Chairman, Senator Alexander, and members of the subcommittee, 
thank you for the opportunity to be part of this important hearing. 
Even more important, thank you for including me in this transcendently 
significant occasion--perhaps the last hearing you will chair as a 
member of the U.S. Senate, Senator Dodd. Your work on behalf of 
children and families, as in so many other areas, has left an indelible 
mark on our Nation. I speak for my wife as well as myself in thanking 
you for all you have done. Millions of American children and their 
families are better off for the phenomenal trail of achievement that 
you have blazed. The list would use up my allotted time and much more, 
going from the Family and Medical Leave Act through SCHIP, and on 
through child care, Head Start, children with disabilities, HIV-AIDS, 
and much much more. Few Senators in the history of this body can claim 
such a record of accomplishment.
    You have asked me to reflect on the achievements and 
disappointments of recent decades with regard to child poverty in our 
country, on lessons learned, and on what we need to do going forward.
    It is impossible to understand child poverty trends without placing 
them in a context of what has happened to the American economy and to 
the distribution of income and wealth. Except for the last half of the 
1990s, the economic history of the past four decades has been one of 
near-stagnation for people with jobs that pay below the median wage in 
the country--the entire bottom half, if you will. De-
industrialization--the flight of jobs abroad and the replacement of 
many jobs by automation--has hurt millions. Good paying factory jobs 
have been replaced (fortunately, new jobs did come along) by much lower 
paying service jobs. Half the jobs in the country pay less than $30,000 
a year, and a quarter pay less than the poverty line for a family of 
four. Large numbers of children have grown up to get jobs that pay less 
than what their parents earned. Our economy did grow, but the increased 
income went almost entirely to people at the top of the income ladder. 
To cite just one stunning statistic, the top 1 percent took in 9 
percent of personal income in 1976 and 23.5 percent in 2007. 
Understanding this framework is vital to understanding why we have not 
made more progress in reducing poverty over the past 40 years, as well 
as the larger situation of all lower income families and individuals. 
It is all far more rooted in the fact of low-wage work and the ever-
growing gap between rich and poor than we typically say out loud.
    We did in fact provide significant new Federal funding over this 
period that kept the stagnation of the bottom half--especially families 
that would otherwise be in poverty or more deeply in poverty--from 
being as damaging as it would otherwise have been. The Earned Income 
Tax Credit, the Child Tax Credit, Medicaid and SCHIP, child care 
assistance, food stamps, housing vouchers, Pell grants, and other forms 
of assistance all have the effect, directly or indirectly, of adding to 
the income of lower income families. These have been, and continue to 
be, wise investments to cushion the damage done by the massive changes 
that have occurred in our economy. We would have millions more families 
in poverty or more deeply in poverty without these investments.
    This, briefly, is the big picture--trends in wages and income 
distribution and trends in income supports, be they in cash or in kind. 
But poverty is not monolithic, and the totality of the steps that need 
to be taken to end poverty is consequently not monolithic. There are 
racial, gender, and ethnic disparities that require special attention 
to continuing discrimination and the underlying reasons for disparate 
outcomes for the groups affected, whether in education, the criminal 
justice system, or elsewhere. The elderly present different challenges 
from those of working age, although we should celebrate the enormous 
success we have had over the past half century in bringing the elderly 
from being the poorest age group to being the least poor. Disabled 
people present unique issues. So do people who live in rural areas, as 
well as people who live in inner-city neighborhoods of concentrated 
poverty. Educational disparities lead to disproportionate problems of 
poverty. Children who grow up with a single parent--typically a single 
mother--are much more likely to be poor during their childhood, and 
more likely to experience poverty in adulthood. Children are now the 
poorest age group. Each of these groups and areas presents different 
policy issues.
    A particular area of concern is the continuing issue of 
concentrated poverty in inner cities. If anything, the poverty in those 
areas is more entrenched than ever. It is persistent, is too often 
intergenerational, and disproportionately involves people of color. 
Comparatively speaking, the numbers are not large, encompassing perhaps 
15 percent of the poor, but the poverty of the inner city is the image 
many have of American poverty in general. It is an artifact of de-
industrialization, plus the flight of middle-class residents to the 
suburbs beginning in the 1970s, plus continuing racial discrimination, 
plus terrible schools, and more, all of which have added up to produce 
behaviors and troubling statistics that are the fuel of political 
controversy.
    This list of the various faces and forms of poverty underscores the 
obvious. A full-scale assault on American poverty, or even an assault 
confined to the category of children and families that is the 
jurisdiction of this subcommittee, will entail multiple strategies 
engaged in by multiple actors. The heart of the answer for children and 
families is work that produces a decent income, but this also must be 
coupled with necessary work supports, a proper safety net, and a 
sufficient investment in education to prepare children for 
participation in the economy and the broader society (and afford mid-
career adults the chance to retool for jobs in emerging areas). The 
full list of remedies is even longer, reaching to health care and 
mental health, child care and pre-K, housing, neighborhood 
revitalization, transportation for access to jobs, help with college 
costs, legal services, drug and alcohol treatment, both immigration 
reform and juvenile and criminal justice reform, and more. And it 
cannot be emphasized too strongly that no one will succeed in making 
the most of available opportunities unless he or she assumes personal 
and individual responsibility for doing so.
    The strongest antipoverty strategy is full employment. I am sure 
everyone in this room is deeply worried about when and even whether our 
current unemployment crisis will abate. Our first need, which is 
obviously beyond the jurisdiction of this subcommittee, is economic 
policy that will produce the jobs we need for our people. The plethora 
of low-wage jobs has been a serious problem for a long time, but for 
the last 25 years we at least had an overall unemployment rate that was 
the envy of the rest of the world. Far too many of the jobs we still 
have pay shockingly little but, even worse, we now have too few jobs 
overall, and no clear strategy for accelerating the rate of recovery to 
get back to where we were, which was itself far from perfect.
    Our first need is jobs but, especially in the current crisis, we 
also cannot stop helping the millions who have been unemployed for a 
long time and have no prospect of finding a job any time soon. I hope 
Congress will act before November 30 to continue the extended benefits 
that are the lifeline for a huge number of people. And if we have a 
very large number of new poor, we still have the very large number of 
children and families who were already poor before the recession began. 
All of these are problems that demand constructive attention.
    Just as poverty is not monolithic as a matter of race or gender or 
place or in many other ways, we need to focus on low-income people in a 
more income-precise way.
    There are, roughly, three different groups.
    The first is the astonishing number of people who live in extreme 
poverty--with incomes below half the poverty line, or below $8,500 a 
year for a family of three. In 2009 this number climbed to 19 million 
people, or 6.3 percent of the population, but it had crept up from 12.6 
million in 2000 to 15.6 million even before the recession began. Our 
safety net for such people is riven with gaping holes. Six million 
people now have income only from food stamps--and food stamps provide 
an income at only about a third of the poverty line. Welfare is 
virtually nonexistent in many States, and is of little help in many 
others. With the recession, the food stamp caseload has climbed to well 
over 40 million people, while welfare has barely increased to somewhat 
more than 4 million. In Wyoming the welfare caseload in 2008 was 281 
families, covering 4 percent of the poor children in the State. Nor is 
this atypical. Nationally, only 22 percent of poor children received 
welfare in 2008, compared to 61 percent in 1995. In 1991 12 percent of 
poor women had no job and no welfare. By 2007 the number was 34 
percent. There is virtually no public attention to the issue of extreme 
poverty.
    The second group is comprised of those whom we call poor, whose 
income in 2009 was below about $17,000 for a family of three and about 
$22,000 for a family of four. Senator Dodd, you have been a leader in 
proposing legislation to reconstitute the poverty line to a level that 
is more realistic and takes into account both all elements of income 
and all the basic costs of living. I think there is a sense in the 
country that the poor are somehow a group that is separate and apart 
from everyone else. This is by and large not true. A large percentage 
of families with incomes below the poverty line do work. They have 
seasonal or sporadic or part-time work and even full-time jobs, and a 
hefty 61.6 percent of their income comes from work or self-employment. 
They bring in as much money as they can from work, but in millions of 
cases scrape by only because they are able to supplement their income 
by turning to the Earned Income Tax Credit and the Child Tax Credit. I 
therefore found it surprising and disturbing to read that the co-chairs 
of President Obama's debt commission are suggesting consideration of 
cuts in these two crucially important income supplements. I frankly 
don't understand the thinking here.
    The third group is those who are not poor by any measure and would 
reject any label in that regard, but who nonetheless face a continuous 
struggle to make ends meet every month. These are people who have to 
decide whether to go to the doctor when they are ill (even if they have 
health coverage, due to the expense of paying the deductible or the co-
insurance). Reams of research suggest that this group is composed of 
people with incomes up to twice the poverty line. It constitutes nearly 
a third of the population--more than 100 million people. The focus of 
our public policy needs to be not just poverty, but all lower income 
people who are having such a difficult time.
    It is critical to stress that the remedies for poverty and near-
poverty are a responsibility that reaches far more sectors and groups 
than what goes on in the Federal Government, or in government at all 
levels, as important as public policy is. Civic leaders from every 
sector, volunteers of all kinds, and low-income people themselves all 
have a responsibility. There is a tendency for some to stress one or 
the other--public policy solutions or voluntarism and personal 
responsibility. The real truth is that the responsibility is both/and 
in every way we can think of it. We need leadership on both sides of 
the aisle to find the common ground that has to be the reality of 
making progress for the future of all of our children.
    Senator Dodd, we will miss you terribly. I know you will still be a 
voice and a force for what we should be doing and that is comforting. 
We have made great progress over these past decades and in the past 2 
years and you have been in the forefront of almost everything that has 
happened. I am deeply honored to be here this morning and to be in the 
fortunate position of being able to say to you directly and from my 
heart, thank you.

    Senator Dodd. Well, Peter, thank you immensely--you and 
Marian both. Your insight and the work that you've done on this 
is tremendously important. I just urge my colleagues who will 
be here, to stay in touch with you, the young people you work 
with, the graduates, the going on and just so much data is 
that--as Pat Moynihan used to say--and now I hear Lawrence 
O'Donnell using the line--``You're entitled to your own 
opinions, but not your own facts.'' I must have heard Pat 
Moynihan say that a million times when I served with him here, 
and I think of this so often.
    These are just facts, and they're not debatable. You can 
argue about what policies you want to apply to make it work, 
but the facts are what you outline them to be. And, we can deny 
them; we can refuse to identify them, but they're not going to 
go away. And, the numbers, unfortunately, are growing worse.
    So, your counsel and your advice and participation can be 
tremendously helpful to this committee and the Congress in the 
coming days as we wrestle with these issues.
    Thank you, immensely.
    Mr. Edelman. Thank you.
    Senator Dodd. Dr. Satcher, thank you once again for being 
back before the committee. We miss you and you did a great job 
during your tenure. We used to listen to you frequently here in 
this committee, and we thank you for being a part of this, 
today's hearing.

STATEMENT OF DAVID SATCHER. M.D., Ph.D., DIRECTOR, THE SATCHER 
HEALTH LEADERSHIP INSTITUTE AND CENTER OF EXCELLENCE ON HEALTH 
     DISPARITIES, MOREHOUSE SCHOOL OF MEDICINE, ATLANTA, GA

    Dr. Satcher. Well, thank you very much, Senator Dodd, and 
members of the subcommittee. I am delighted to be able to be 
here, especially for this, your last hearing. I had a lot of 
opportunities to testify before you during the 9 years that I 
served in government; five as Director of the CDC and four as 
Surgeon General and Assistant Secretary for Health.
    I just want to say one thing: At the Satcher Health 
Leadership Institute at the Morehouse School of Medicine, we 
have a saying that applies to you. We say that we need more 
leaders who care enough, who know enough, who are willing to do 
enough and who will persevere until the job is done.
    And, so I salute you today for being a model of that kind 
of leadership, and express, on behalf of all of my colleagues, 
our appreciation for your great leadership in the interest of 
child health in this country.
    Senator Dodd. Thank you, very much, Doctor. I appreciate 
it.
    Dr. Satcher. I will make four brief points: One is, that 
the most important investment that we can make in this country, 
as you've heard, is in the health of children. And, I think the 
most important time for that investment, of course, is during 
the reproductive periods, in utero periods, and early 
childhood. I think we are failing, during the most delicate 
period of development of our children, to make sure that they 
have adequate nutrition, that they are protected from toxins 
such as lead, and tobacco, substance abuse; and we're losing 
that battle. Secondhand smoke is still a major problem for 
children in this country.
    I think the first recommendation would be that we focus 
more on this early period of childhood that deals with the 
health of mothers. You remember that during my tenure in 
government, working together, we were able to get the 
fortification of folic acid into flouring mills, which 
significantly reduced the incidence of neuro-tube defects in 
this country.
    Just one example of what can happen when children receive 
the right micronutrients, and the dangers of them not receiving 
them.
    The second thing I want to say is that I think that we have 
ignored the development of the brain in children in so many 
ways. We know more and more about the brain every day, as you 
know. I released the first Surgeon General's Report on mental 
health.
    But many of our children, during the most delicate period 
of the brain development, are not getting the nutrition that 
they need, are not being protected from toxins, but are also 
not getting the social interaction and motivation.
    When I was a member of the World Health Organization's 
Commission on Social Determinants of Health, our first visit 
was to Chile. And, what I remember most about that visit is 
that Chile had made a decision many years ago to invest in the 
children of the poor.
    Beginning with 3 months of age, Chile decided to invest in 
daycare and early childhood education all the way through the 
ninth grade, including good nutrition and physical activity.
    Their logic was that by investing early, they would not 
have to invest as much later in the medical care or in criminal 
justice.
    I think it's a lesson that we, as a Nation, really need to 
learn.
    Sweden has a long history of making this kind of investment 
in the poor.
    And, for those of us who are members of the World Health 
Organization's Commission on Social Determinants of Health, 
that first visit sort of stood out, and you can see the 
products of it in our report.
    Another problem I want to mention is childhood obesity. 
Now, as you probably remember, in December 2001, I was able to 
release the Surgeon General's Call to Action to prevent and 
reduce overweight and obesity. We called it an epidemic, and 
that was a shock to some people, because epidemics usually 
apply to infectious diseases. But, we noted between 1980 and 
2000 childhood overweight and obesity had tripled in this 
country. So we thought that we could call it an epidemic. We 
made some major recommendations about investing in physical 
activity and good nutrition.
    After leaving government, I was able to start an 
organization called Action for Healthy Kids, to work with 
schools in this country to try to get them to return to 
physical education in K-12 and to model good nutrition.
    One of the things I remember is that we had a lot of 
difficulty working with schools initially. They said, ``Well, 
why do you want to dump the problem of childhood obesity on us? 
We already scrubbed in with No Child Left Behind and now you 
want to give us another problem.''
    So, it was a difficult partnership until, in 2005, we 
released a report called The Learning Connection. In that 
report we summarized all of the research showing that children 
who ate a good breakfast and children who were physically 
active on a regular basis learned better in school. They did 
better on standardized exams, in reading and math. They were 
better disciplined. They were much less likely to be absent 
from school.
    And, so I think then we became a real partnership. We now 
have 24,000 volunteers throughout the country.
    Ninety-five percent of schools now have policies related to 
physical activity and good nutrition, but they don't have the 
funds to implement them. I think there's a real lesson there.
    The last point I want to make is about this critical 
recommendation from the World Health Organization, and I'll 
just read it as we stated it.
    Our commission said that we must commit and implement a 
comprehensive approach to early life, building on existing 
child-survival programs and extending interventions in early 
life to include social/emotional and language/cognitive 
development.
    That's the World Health Organization's recommendation for 
countries all over the world.
    The United States needs to listen to that recommendation. 
As you know, we rank No. 29 out of 30 in infant mortality, 
despite our wealth. And, we have a long ways to go in terms of 
responding to the needs of our children.
    So, I close today by saying that I think we have a 
tremendous opportunity to turn around the course that we're on, 
in terms of what's happening to children in the United States. 
We have an opportunity to be a leader in the global community, 
in carrying out the recommendations of the World Health 
Organization's for Social Determinants of Health.
    I look forward to continuing to work with you as you leave 
the Senate and we continue to try to do what's best for 
children.
    Thank you very much.
    [The prepared statement of Dr. Satcher follows:]

            Prepared Statement of David Satcher, M.D., Ph.D.

    I am Dr. David Satcher and I am director of the Satcher Health 
Leadership Institute at Morehouse School of Medicine. From October 1993 
to February 1998, I served as director of the Centers for Disease 
Control and Prevention in Atlanta and from February 1998 to February 
2002, I served as the 16th Surgeon General of the United States. For 3 
of those years, 1998-2001, I also served as the Assistant Secretary for 
Health and was responsible for providing leadership for the development 
of Healthy People 2010.
    I am pleased to join you for this important discussion on the state 
of the American child. I am especially grateful to be a part of this 
last hearing before Senator Dodd, who has contributed so much to 
improving the conditions of child health in America, including critical 
support for the Child Health Insurance Program of 1996.
    Today I am pleased to express my appreciation and that of my 
colleagues, who work daily to improve the health of children, to 
Senator Dodd for all that you have been and done on behalf of the 
children in this country and the world.
    As Surgeon General, I stated that the best investment that we could 
make as a nation was to invest in the health and future of our 
children. One of the greatest responsibilities of leaders is to speak 
for those who cannot speak for themselves. Children, especially, need 
advocates and they need leaders like Senator Dodd.
    Today I want to comment briefly on four aspects of the health of 
children. First, the impact of reproduction and in utero; second, the 
impact of the environment on the brain; third, childhood obesity; and 
fourth, the social determinants of health.
    First, children are greatly impacted by reproductive health and the 
conditions of pregnancy and their in utero experience. According to 
America's Children in Brief: Key National Indicators of Well-Being, 
2010,

          ``Infants born preterm and with low-birth weight are at high 
        risk of early death and long-term health and developmental 
        problems. Following many years of increases, the U.S. preterm 
        birth rate declined for the second straight year, from 12.8 
        percent in 2006 to 12.7 percent in 2007 to 12.3 percent in 
        2008. Decreases in preterm rates between 2007 and 2008 were 
        seen for each of the three largest race and ethnicity groups: 
        White, non-Hispanic, African-American, non-Hispanic, and 
        Hispanic women.''

    Children in utero need to be nourished by good nutrition and a safe 
environment. They need protection from toxins of various kinds, 
including alcohol, tobacco, lead, and various forms of substance abuse. 
Likewise, it is important that children in utero are protected from 
infectious diseases, trauma, and violence. Irreversible damage is done 
to the health of children and adults by adverse in utero experiences. 
There is also increasing evidence that the environment in the womb 
plays a role in later development in childhood and adulthood of 
obesity, type 2 diabetes, high blood pressure, and heart disease.
    The most important target organ for all of our efforts to improve 
the health of children and of adults is the brain. The conditions to 
which the brain is exposed in utero and in early childhood are most 
critical to healthy outcomes in children and adults. A recent survey 
reveals that 20 percent of children will suffer some mental or 
behavioral disorder each year including substance abuse.
    We know that high-quality nutrition during gestation and after 
delivery is critical to the healthy development of the child. The 
avoidance of toxins in utero is critical to the normal development of 
the brain--toxins such as lead, tobacco, alcohol, and other drugs. The 
brain needs nutrients including vitamins, minerals, and others. And the 
brain needs it from the earliest period of development. In fact we know 
that inadequate intake of folic acid by the mother before and following 
conception is a major risk factor for neuro-tube defect. Likewise, the 
impact of other nutrients from the earliest period of development is 
crucial.
    The brain not only needs the nutrients of nourishing foods and 
drink but also the nutrients of positive social relationships beginning 
with parents. Language development and other social skills are greatly 
impacted during this early period of life. Programs that aim to enhance 
early child development are worth their weight in gold and some 
countries are now investing heavily in this period of life.
    At birth, children face conditions that stem from their in utero 
experience and new challenges to their health and well-being from their 
new environment. Children need to be immunized against common 
infectious diseases that can damage the developing brain, causing 
ongoing problems. In early childhood children need special nurturing 
relationships with parents in order to develop appropriate social 
skills and optimal brain development. Early childhood and parental 
immunizations have reduced the incidence of rubella and general 
measles, preventing or protecting the brain from serious damage from 
these infectious diseases.
    Fortunately, improvement and access to quality prenatal care have 
enhanced birth outcomes and have continued to help decrease infant 
mortality. Yet as a nation, we continue to trail other industrialized 
countries and some developing countries in infant mortality. According 
to the CDC, in 2004 (the latest year that data are available for all 
countries), the United States ranked 29th in the world in infant 
mortality. In 2005, the U.S. infant mortality rate was 6.86 infant 
deaths per 1,000 live births, not significantly different than the rate 
of 6.89 in 2000.
    Children are also needlessly exposed to environmental toxins early 
in life with second-hand smoke probably being the most prevalent and 
damaging and most preventable. In 2007-8, 53 percent of children ages 
4-11 had detectable blood cotinine (a breakdown product of nicotine) 
levels, down from 64 percent in 1999-2000 and 88 percent in 1988-94. 
The percentage of children with cotinine levels indicating high levels 
of secondhand smoke exposure declined from 26 percent in 1988-94 to 18 
percent in 1999-2000. However, the percentage did not change 
significantly from 1999-2000 to 2007-8. We have also made dramatic 
progress over the last 30 years in reducing the exposure of children to 
lead in early childhood and that progress needs to continue.
    Environmental agents of various kinds have lead to an increase in 
childhood asthma in recent years, especially in inner city children. In 
2008, 9 percent of children had asthma that was either active or well-
controlled. This percentage increased slightly from 2001 to 2008. 
Efforts to clean up the environment and reduce/eliminate toxins of all 
kinds are critical to the ongoing health of children.
    Childhood obesity is one of the greatest threats to child and adult 
health that we are facing today. The risk of childhood obesity begins 
in utero and those risks include obesity of the mother during the 
pregnancy. Today in America, almost one-third of pregnant women are 
obese and among African-American mothers, the figure is closer to 50 
percent. Obesity in the mother is a major risk factor for obesity in 
the child. On the other hand, children who are breast-fed are less 
likely to be obese and programs to increase breastfeeding need to 
continue in all populations.
    In early childhood we have witnessed a dramatic increase in obesity 
and in the Surgeons General Report of 2001 we pointed out that between 
1980 and 2000 obesity had doubled in children and tripled in 
adolescents. We call this an epidemic. Poor nutrition and increasingly 
sedentary lifestyles have spread from adults to children in the United 
States. Even our schools no longer require physical education in grades 
K-12 and are often not modeling good nutrition but contributing to the 
development of both the habits of sedentary lifestyles and poor 
nutrition. It is almost as if home, school, and community have 
conspired to produce an epidemic of childhood obesity. This was our 
concern in The Surgeon General's Call to Action to Prevent and Decrease 
Overweight and Obesity, 2001 as we called upon all of these sectors to 
work together in combating the epidemic of childhood obesity.
    Not only are children who are overweight and obese more likely to 
be overweight and obese adults with increased risks of cardiovascular 
disease, diabetes, and cancer, but children who are overweight and 
obese are at increased risks for depression, diabetes, and 
hypertension. In addition, as we pointed out in the Action for Healthy 
Kids Report of 2005, entitled the Learning Connection, children who eat 
well and are physically active learn and perform better on standardized 
exams in reading and math. These children are also better disciplined 
and less likely to be absent from school.
    There are signs from recent CDC data that the epidemic of childhood 
obesity is plateauing but the battle must continue. It is much too 
early to declare any kind of victory in the battle against childhood 
obesity.
    The Commission on Social Determinants of Health makes the following 
recommendation:

    <bullet> Commit to and implement a comprehensive approach to early 
life, building on existing child survival programs and extending 
interventions in early life to include social/emotional and language/
cognitive development.

    I would like to close with the following thoughts and 
recommendations:

    <bullet> As a nation we need to invest more in the health and well 
being of our children--our greatest natural resource.
    <bullet> In our work to improve access to quality healthcare, pre- 
and perinatal care must receive priority attention. Damages in this 
period are usually irreversible.
    <bullet> The role of parents and parenting is vital to child health 
and development especially mental/behavioral health and violence 
prevention.
    <bullet> Our best hope for reversing the child obesity epidemic is 
to provide optimal environments of opportunity and motivation for 
regular physical activity and good nutrition.
    <bullet> The most cost-effective investment that we can make in the 
health of children is to invest in improving the social determinants of 
health--education, safety, social inclusion and bonding to name a few.

    There is no greater investment that a nation can make than to 
invest in the health of children and their early development. By so 
doing, we not only prevent diseases in childhood but most of the 
problems of adulthood including major disparities in health among 
different racial and socioeconomic groups.

    Senator Dodd. Thank you, Doctor, very much. And, thank you 
again, for your remarkable service and continuing service to 
our country; very, very valuable. You did a wonderful, 
wonderful job as Surgeon General.
    Dr. Satcher. Thank you.
    Senator Dodd. And, we still recall, with great admiration, 
your service and your contribution. So, thanks.
    Helen Blank, we thank you once again for joining us. We'll 
get to you and Dr. Casserly here and we'll get to some 
questions.

   STATEMENT OF HELEN BLANK, DIRECTOR, LEADERSHIP AND PUBLIC 
      POLICY, NATIONAL WOMEN'S LAW CENTER, WASHINGTON, DC

    Ms. Blank. It is a special honor to be here today, Senator 
Dodd, 20 years after the enactment of the Child Care and 
Development Block Grant. It took over 3 years, but you and 
Senator Hatch were steadfast. You never gave up.
    And, after that, children in this country could count on 
you to lead every effort to increase investments in child care 
and Head Start.
    I wish I could tell you that the glass was all full.
    Despite our many efforts to provide better quality 
experiences for young children, we still haven't found the will 
to ensure that all our children, especially our most 
vulnerable, have them.
    Frankly, the gap between the rhetoric and the reality is 
stunning, given the research, the support of our top economists 
and the growing public understanding of the importance of 
children's early years to our future.
    You've listened to the debates. Do we focus on supporting 
families work or do we support early education? These are all 
interrelated goals. When parents do better, it's simple: 
children do better. And children also do better when they get 
to be in high quality programs.
    The Federal commitment is paramount. Unlike K-12, most 
policy makers don't recognize that the bulk of funds for early 
education are Federal, not State or local. For families, CCDBG 
is a lifeline. It reaches children up to age 13 for a full day 
and full year; and approximately 1.6 million children now 
receive help.
    You might remember Sheila Merkison. She was the Maine 
mother who testified before you in 2002. She was on her State's 
child care waiting list. Sheila had left an abusive husband. 
She told this committee:

          ``The problem I'm facing is, although I believe my 
        day care deserves every penny of it, my child care 
        expenses are 48 percent of my weekly income. I see no 
        other way to fully provide for my son if this program 
        can't help us. I make $18,000 a year. I'm asking for 
        the ability to work, to provide for my son.''

    After testifying, which always seems to do the trick, 
Sheila received a child care subsidy when she went home. She 
wrote, just this week, that she wished that she could 
personally come to thank you on behalf of herself and of all 
the mothers helped by CCDBG.

          ``I've been working as an insurance agent for 8 
        years. My son is doing excellent. He was recently 
        invited to test for the Johns Hopkins University Talent 
        Search. I was able to buy a home. I honestly wouldn't 
        have been able to accomplish this without child care 
        assistance.''

    CCDBG quality dollars, many don't realize, also under-grids 
State early childhood systems. They fund programs that help 
child care providers go to school, and reward them for their 
efforts. They support program monitoring, resource and referral 
services, basic materials, and growing quality rating and 
improvement systems.
    Head Start and Early Head Start, as you mentioned, are very 
important national building blocks. Early Head Start is our 
best effort at reaching infants and toddlers and their 
families. Head Start, as Senator Alexander pointed out, 
continues with the help of the reauthorization in 2007, to 
strengthen its standards, teacher credentials and monitoring.
    State-funded pre-kindergarten is another positive 
development. However, programs primarily serve 4-year-olds for 
only part-day, part-year, and sometimes, part-week, leaving 
working parents scrambling to fill in the day.
    State Early Childhood Advisory Councils, which you provided 
for in the Head Start reauthorization, facilitate collaboration 
across the system. While collaboration can encourage effective 
use of resources, it's not cost-free, and alone will not fill 
our gaps. Only one out of six children, eligible for Federal 
child care help receives it.
    With all the families in those low-wage jobs that Peter 
talked about, we need more and more child care help.
    Long waiting lists are common. California usually has about 
200,000; Florida, when we originally were working on the child 
care bill, had about 25,000; now it's about 67,000. Denver has 
shut its child care program to low-income working families for 
the next 18 months. North Carolina has a great early childhood 
system, but almost 38,000 families on its waiting list. 
Arizona, since February last year, has shrunk its child care 
program from 48,000 to 30,000 children.
    Several States say now, unless you're on TANF we won't give 
you child care help.
    States choose between serving families, asking parents to 
contribute more or paying child care providers less. Only six 
States pay rates that reflect the current cost of care. Less 
than half of eligible 3- and 4-year-olds are in Head Start, 
just 4 percent of eligible infants and toddlers are in Early 
Head Start. A crime, given what Dr. Satcher talked about in 
terms of the importance of brain development and stimulation in 
those early years.
    Children are left with a patchwork of State standards, not 
even always guaranteeing their health and safety. Eight States 
don't require an annual monitoring visit for child care 
centers. California only visits centers once every 5 years. 
Child care workers' average annual wage is under $21,000.
    Many children get a good part of their nutrition in child 
care. Without access to the Child Care Food Program they're 
dependent on food brought from home that, in these tough times, 
is simply inadequate. Gaps in CACFP make it difficult for 
providers to offer the meals children need.
    Our country needs to close these gaps by expanding access 
to these core programs. We need to help early childhood 
providers increase their education and compensation, ensure 
their resources for high-quality, full-day programs that 
address working parents' need for care--and children's--for 
early learning.
    Coordination between early care programs in school should 
ensure that what children learn and the progress they make 
before school is reinforced after they enter school.
    National and State groups have developed an agenda to guide 
Congress in a comprehensive reauthorization of CCDBG.
    But there is a step, as Jennifer Garner has mentioned, that 
Congress must take now. We're at immediate risk of taking a 
giant step backwards in early childhood that we won't recover 
from. The fate of 300,000 children hangs in the balance. 
Without a bill that sustains the increases for child care and 
Head Start that were in ARRA, children and families and their 
providers are going to lose this help.
    This is going to be devastating as they continue to 
struggle in this difficult economy, and as many State budgets 
remain in free fall.
    Yes, along with this core funding, Congress should 
establish an early learning challenge fund.
    Parents are always going to be their children's primary 
teachers, and always have the biggest role in their children's 
early learning, but they need more. Federal and State 
Governments need to step up now to close these gaps. If 
children miss out on these early learning opportunities that 
help them succeed in school and life, we are all going to lose 
out.
    Thank you.
    [The prepared statement of Ms. Blank follows:]

                   Prepared Statement of Helen Blank

                                SUMMARY

    High-quality early care and education is essential for getting 
children the strong start they need to succeed in school and ultimately 
help make a positive contribution to our Nation's economy. It is also 
essential to help their parents work. Recognizing this, we have 
increased investments in early care and education over the past 20 
years. Yet, we still haven't found the will to ensure that all our 
children, especially our most vulnerable children, have the early 
childhood opportunities they need. The Federal commitment is paramount. 
Unlike K-12 education, the bulk of public funds for child care and 
other early childhood programs are Federal, not State or local.
    The Child Care and Development Block Grant (CCDBG) is a lifeline to 
families' ability to work as well as their children's ability to learn. 
It provides help to parents with children from birth up to age 13 for a 
full day and full year of child care. Approximately 1.6 million 
children receive help in paying for child care through the CCDBG each 
year.
    CCDBG quality dollars also undergird State early childhood systems. 
The quality dollars help providers with the cost of going to school and 
attaining credentials as well as reward them for their efforts. The 
funds also support monitoring of programs to ensure children's health 
and safety, resource and referral services to help families searching 
for care, basic materials, and Quality Rating and Improvement Systems, 
which provide a pathway toward higher-quality child care.
    Head Start has provided comprehensive services to more than 27 
million of our Nation's poorest children and their families since 1965. 
Early Head Start represents our best efforts at reaching our poorest 
infants and toddlers and their families. Head Start continues to 
strengthen its program standards, teacher credential requirements, and 
monitoring efforts. In addition, State Early Childhood Advisory 
Councils are facilitating closer collaboration across all parts of the 
early childhood system.
    At the State level, prekindergarten is an important development. It 
often comes with higher standards than child care. However, these 
programs are targeted primarily at 4-year-olds and fund only a part-
year, part-day, and sometimes part-week, program in most communities.
    There are still significant gaps to fill. Only one out of six 
children eligible for Federal child care help under CCDBG receives it. 
Many States have long waiting lists for child care assistance. States 
are forced to make Solomon-like choices between serving fewer families, 
asking parents receiving child care assistance to contribute more 
toward the cost of care, or paying child care providers lower rates. 
Less than half of eligible 3- and 4-year-olds and just 4 percent of 
eligible infants and toddlers can participate in Head Start and Early 
Head Start. Most States that have prekindergarten programs serve only a 
portion of their 4-year-olds, and even fewer of their 3-year-olds.
    State licensing standards remain weak in far too many areas, from 
safety standards for facilities to staff-child ratio requirements. 
Eight States don't require an annual monitoring visit for child care 
centers. In 2009, the average annual wage for a child care worker was 
just $20,940.
    Many children get a good part of their daily nutrition in child 
care and early learning settings. Without access to CACFP, they are 
dependent on food brought from home that in these tough economic times 
is simply inadequate. Providers need additional resources to ensure 
continued access to CACFP benefits.
    To close these gaps we should expand access to child care 
assistance, Head Start, Early Head Start, CACFP, and State 
prekindergarten programs. Opportunities and incentives for early 
childhood providers and teachers to increase their education and 
compensation should be explored. We need to ensure there are resources 
for high-quality, full-day programs that address both parents' need to 
have care for their children during their working hours and children's 
need for early learning opportunities. Coordination should be ensured 
between early care and education programs and school systems so that 
what children learn and the progress they make before they enter school 
is reinforced after they enter school.
    There is a step that Congress must take now. The fate of 300,000 
children receiving help from CCDBG and Head Start and Early Head Start 
hangs in the balance. Without a fiscal year 2011 appropriations bill 
that sustains the $1 billion increase for child care and the $1 billion 
increase for Head Start and Early Head Start that were provided in the 
American Recovery and Reinvestment Act, these children and families and 
their child care providers will lose the help they are currently 
receiving. This will be particularly devastating as they continue to 
struggle in this difficult economy and as many State budgets remain in 
free fall. Along with this core funding, Congress should also establish 
an Early Learning Challenge Fund that will encourage States to 
strengthen their early childhood systems and make effective use of 
their early childhood resources.
                                 ______
                                 
    Mr. Chairman, members of the committee, I am Helen Blank, director 
of Leadership and Public Policy at the National Women's Law Center. 
What an honor to be here today 20 years after the enactment of the 
Child Care and Development Block Grant (CCDBG). I want to give a 
special thanks to Senators Dodd and Hatch who helped champion the 
passage of this landmark support for children and families.
    Since 1990, there has been increasing recognition and conversation 
about the importance of the early years. Despite many developments to 
provide better quality experiences for young children, we still haven't 
found the will to ensure that all our children, especially our most 
vulnerable children, have the early childhood opportunities they need. 
We owe our young children better. The gap between the rhetoric and the 
reality is stunning given the research, the support of our top 
economists, and the growing public understanding of the importance of 
our children's early years not only for school success, but our 
Nation's economic success. And with the current focus on deficit 
reduction, we face possible backsliding in our investments in young 
children and families that they cannot afford.
    During the past 20 years, conversations have continued about what 
early childhood investments should accomplish. There has been debate 
about whether the focus should be on child care and early education's 
role as a support to help families work or as a support for child 
development, and whether the focus should be on increasing access to 
child care assistance and early education or increasing quality. In 
truth, these are all equally important and interrelated goals. When 
parents do better, children do better. We also know that there is a 
tremendous payoff when low-income children participate in high-quality 
early learning programs.
    The Federal commitment is paramount. Unlike K-12 education, the 
bulk of public funds for child care and other early childhood programs 
are Federal, not State or local. In addition to CCDBG, our largest 
investment, there are several key Federal programs that low-income 
parents rely on: Head Start and Early Head Start, Preschool Grants 
under Part B Section 619 of IDEA, Grants for Infants and Families under 
Part C of IDEA, and now home visiting. The Child and Adult Care Food 
Program (CACFP) helps ensure that children in these settings have 
access to nutritious meals and snacks during the day and offers 
technical assistance and training to isolated family child care 
providers. The Child and Dependent Care Tax Credit helps some middle-
income families as well by covering a portion of their child care 
costs.
    All of these programs matter, but CCDBG is at the heart of the 
system. For families, CCDBG is a lifeline to their ability to work as 
well as their children's ability to learn. It provides help to parents 
with children from birth up to age 13 for a full day and full year of 
child care for those who need it. We have made a difference since 1990 
when the CCDBG was enacted. Approximately 1.6 million children now 
receive help in paying for child care each year through CCDBG and funds 
transferred from the Temporary Assistance for Needy Families (TANF) 
block grant to CCDBG.\1\ Additional families receive child care 
assistance through funding used directly within the TANF block grant.
    You may remember Sheila Merkison, a Maine mother, who testified 
before the committee in 2002. She was on her State's waiting list for 
child care assistance. Sheila left her abusive husband and struggled 
with her child care costs. She told the committee,

          ``The problem I'm facing is, although I believe my day care 
        deserves every penny of it, my child care expenses are 48 
        percent of my weekly net income. I see no other way to fully 
        provide for my son if this program can't help us. I make 
        $18,000 a year . . . I'm asking for the ability to work to 
        provide for my son.''

    After testifying, Sheila did receive a child care subsidy. She 
wrote to me this week.

          ``I have been working as an Insurance Agent for 8 years now. 
        My son is doing excellent. He was recently invited to test for 
        the Johns Hopkins University Talent Search due to his high 
        scores on the standardized tests at school. I was able to buy a 
        home through the Rural Development agency a year ago. I 
        honestly would not have been able to accomplish any of this 
        without the child care assistance when I needed it.''

    CCDBG quality dollars also undergird early childhood systems in the 
States, supporting families at all income levels. The quality dollars 
help fund T.E.A.C.H. and other programs that help child care providers 
with the cost of going to school and attaining credentials as well as 
reward them for their efforts. The quality dollars are also used to 
support monitoring of programs, regardless of the income of the 
children served, to ensure their health and safety. In addition, the 
quality set-aside supports resource and referral services to help 
families searching for care and community child care programs, helps 
purchase basic materials, books, and equipment for family child care 
homes and centers, and assists in the costs associated with starting 
and operating Quality Rating and Improvement Systems, which provide a 
pathway for providers toward higher-quality child care. These 
initiatives have made a difference. But, there continues to be, as a 
result of inadequate investment in child care, a constant tension 
between serving more eligible children and improving quality.
    Head Start and Early Head Start are the other national building 
blocks in our early childhood system. Head Start has provided 
comprehensive services to more than 27 million of our Nation's poorest 
children and their families since 1965.\2\ Early Head Start represents 
our best efforts at reaching our poorest infants and toddlers and their 
families. Head Start continues to strengthen its program standards, 
teacher credential requirements, and monitoring efforts. In addition, 
State Early Childhood Advisory Councils, which are authorized by the 
Improving Head Start for School Readiness Act of 2007 and are receiving 
initial funding from the American Recovery and Reinvestment Act, are 
facilitating even closer collaboration across all parts of the early 
childhood system.
    At the State level, prekindergarten is an important and another 
positive development. It often comes with higher standards than child 
care. However, these programs are targeted primarily at 4-year-olds and 
fund only a part-year, part-day, and sometimes part-week, program in 
most communities. This leaves working parents scrambling to cover the 
remainder of the time. Innovative early childhood leaders have put 
State prekindergarten funding together with Early Head Start, Head 
Start, and child care dollars, as well as other Federal and State 
resources, to meet the needs of working families and to provide higher-
quality care throughout the day and year.
    Despite the growth of CCDBG, as well as the growth of Head Start, 
Early Head Start, and prekindergarten, there are still significant gaps 
to fill. And while coordination and collaboration and ``systems 
building'' can encourage these resources to be used as effectively and 
efficiently as possible in helping children and families, coordination 
and collaboration are not cost-free and alone will not fill those gaps.

                                 ACCESS

    We are reaching only a fraction of those who need access to early 
care and education opportunities, much less ensuring that those 
opportunities offer high-quality early care and education. Only one out 
of six children eligible for Federal child care help under CCDBG 
receives it.\3\ Many States have restrictive eligibility criteria, 
limiting child care assistance to only the lowest-income families. In 
13 States, a family earning over 150 percent of poverty ($27,465 a year 
for a family of three) cannot qualify for help in paying for child 
care.\4\ And in many States, even those families who are eligible are 
placed on long waiting lists for child care assistance. California 
usually has about 200,000 children on its waiting list.\5\ As of last 
February, Florida's waiting list had almost 67,000 children.\6\ Several 
States are now limiting child care assistance to families who are 
receiving, or were recently receiving, TANF.
    With limited funding, States are forced to make Solomon-like 
choices between serving fewer families, asking parents receiving child 
care assistance to contribute more toward the cost of care, or paying 
child care providers who serve subsidized families lower rates. Only 
six States pay reimbursement rates to child care providers that reflect 
the current cost of care in their communities.\7\ With such low rates, 
child care providers that serve families receiving child care 
assistance must make sacrifices as they stretch their already tight 
budgets. Families receiving child care assistance may have difficulty 
finding a high-quality child care provider willing to accept the low 
reimbursement rates. Families can also confront numerous hurdles in the 
process of applying for and renewing their eligibility for child care 
assistance. This makes it more challenging for parents to retain the 
child care assistance they need to get and keep a job, which creates 
more chaos in the lives of children who desperately need stable early 
childhood experiences.
    For too many of our most vulnerable children, Head Start and Early 
Head Start remain out of reach. Less than half of eligible 3- and 4-
year-olds have the opportunity to participate in Head Start.\8\ And 
just 4 percent of eligible infants and toddlers are enrolled in Early 
Head Start.\9\ Most States that have prekindergarten programs serve 
only a portion of their 4-year-olds, and even fewer of their 3-year-
olds.

                QUALITY ASSURANCES AND HEALTH AND SAFETY

    Another major gap is in ensuring the basic health and safety of 
children in child care. There has been scant support in Congress for 
Federal child care standards. This has left children with a patchwork 
of standards that do not always guarantee their health and safety. 
State licensing standards remain weak in far too many areas, from 
safety standards for facilities to staff-child ratio requirements. 
Eight States don't require an annual monitoring visit for child care 
centers, including California, where 5 years can pass between licensing 
visits, according to a study by the National Association for Child Care 
Resource and Referral Agencies.\10\ Yet, States--facing budget crises 
of their own--do not currently have the resources to expand their 
licensing systems, and are typically reluctant to strengthen their 
standards out of concern that doing so would increase costs for child 
care providers operating on tight margins, which would force them to 
increase their fees, which would only put the cost of care further out 
of reach for more parents.

                   EARLY CARE AND EDUCATION WORKFORCE

    We will also continue to struggle to improve child care unless we 
address the training, education, and compensation of the early 
childhood workforce. In 2009, the average annual wage for a child care 
worker was just $20,940.\11\ With such low wages, it will continue to 
be difficult if not impossible to attract and retain good teachers for 
our early learning programs.

                            CHILD NUTRITION

    Many children get a good part of their daily nutrition in child 
care and early learning settings. Without access to CACFP, they are 
dependent on food brought from home that in these tough economic times 
is simply inadequate. Yet, reimbursement levels for meals is 
insufficient to ensure that providers have the resources to provide 
meals and snacks that meet the newly recommended standards from the 
Institute of Medicine. While young children eat small portions but 
frequently, Federal funds do not provide enough for a second snack 
during a long child care day. Family child care providers have less and 
less access to CACFP and the sponsors that work with them do not have 
the necessary resources to support providers. Pending Child Nutrition 
reauthorization does not adequately address the Child and Adult Care 
Food Program and it is possible that it will actually result in fewer 
providers and children having access to its benefits.

                             LOOKING AHEAD

    Our country needs to move forward to close these lingering gaps in 
our early childhood system. We should expand access to child care 
assistance, Head Start, Early Head Start, CACFP, and State 
prekindergarten programs. We need to provide opportunities and 
incentives for early childhood providers and teachers to increase their 
education and compensation. We need to make sure there are resources 
for high-quality, full-day programs that address both parents' need to 
have care for their children during their working hours and children's 
need for early learning opportunities. We need to ensure there is 
coordination between early care and education programs and school 
systems so that what children learn and the progress they make before 
they enter school is reinforced after they enter school.
    In the long term, we need a national agenda. National and State 
organizations focused on children and families have developed such an 
agenda--the Agenda for Affordable, High-Quality Child Care--that can 
guide the Congress in enacting a comprehensive reauthorization of the 
Child Care and Development Block Grant (and which we request be 
included in the hearing record).
    However, there is a step that Congress must take now. Despite the 
consensus about the importance of the early years for all children, we 
are at immediate risk of taking a giant step backwards. The fate of 
300,000 children receiving help from CCDBG and Head Start and Early 
Head Start hangs in the balance. Without a fiscal year 2011 
appropriations bill that sustains the $1 billion increase for child 
care and the $1 billion increase for Head Start and Early Head Start 
that were provided in the American Recovery and Reinvestment Act, these 
children and families and their child care providers will lose the help 
they are currently receiving. This will be particularly devastating as 
they continue to struggle in this difficult economy and as many State 
budgets remain in free fall. Along with this core funding, Congress 
should also establish an Early Learning Challenge Fund that will 
encourage States to strengthen their early childhood systems and make 
effective use of their early childhood resources.
    Parents will always be their children's primary teachers, and they 
will always have the biggest role to play in their children's early 
learning experiences. But they need your support. Federal and State 
Governments still need to step up to close these gaps. Because if 
children miss out on these early learning opportunities that help them 
succeed in school, we all lose out. Let's take this opportunity to 
build a stronger early childhood system for our children, and for our 
future.

                               References

    \1\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Child Care and Development Fund Statistics, 
FY 2008 CCDF Data Tables (Preliminary Estimates), Table 1: Child Care 
and Development Fund Preliminary Estimates Average Monthly Adjusted 
Number of Families and Children Served (FFY 2008), available at http://
www.acf.hhs.gov/programs/ccb/data/ccdf_data/08acf800_preliminary/
table1.htm.
    \2\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Office of Head Start, Head Start Program 
Fact Sheet FY 2010, available at http://www.acf.hhs.gov/programs/ohs/
about/fy2010.html.
    \3\ U.S. Department of Health and Human Services, Office of Human 
Services Policy, Office of the Assistant Secretary for Planning and 
Evaluation, Estimates of Child Care Eligibility and Receipt for Fiscal 
Year 2006 (April 2010), available at http://aspe.hhs.gov/hsp/10/cc-
eligibility/ib.shtml.
    \4\ Karen Schulman and Helen Blank, State Child Care Assistance 
Policies 2010: New Federal Funds Help States Weather the Storm 
(Washington, DC: National Women's Law Center, 2010), available at 
http://www.nwlc.org/sites/default/files/pdfs/
statechildcareassistancepoliciesreport2010.pdf.
    \5\ Schulman and Blank.
    \6\ Schulman and Blank.
    \7\ Schulman and Blank.
    \8\ Calculations based on data on Head Start enrollment from the 
U.S. Department of Health and Human Services, Administration for 
Children and Families, Office of Head Start and data on children in 
poverty by single year of age from the U.S. Census Bureau.
    \9\ Calculations based on data on Early Head Start enrollment from 
the U.S. Department of Health and Human Services, Administration for 
Children and Families, Office of Head Start and data on children in 
poverty by single year of age from the U.S. Census Bureau.
    \10\ National Association of Child Care Resource and Referral 
Agencies, We CAN Do Better: 2009 Update. NACCRRA's Ranking of State 
Child Care Center Regulation and Oversight (Washington, DC: NACCRRA, 
2009), available at http://www.
naccrra.org/publications/naccrra-publications/publications/
We%20Can%20Better%
202009_MECH-screen.pdf.
    \11\ U.S. Department of Labor, Bureau of Labor Statistics, May 2009 
National Occupational Employment and Wage Estimates, available at 
http://www.bls.gov/oes/current/oes_nat.htm.
                                 ______
                                 
                     Developing America's Potential

           An Agenda for Affordable, High-Quality Child Care

    Developing America's Potential: An Agenda for Affordable High-
Quality Child Care is the product of a historic collaboration of 
national and State organizations to craft a shared ``blueprint'' for 
the future of child care. It offers a solid framework for guiding the 
reauthorization for the Child Care and Development Block Grant (CCDBG) 
and other opportunities for child care improvement in the new 
Administration and new Congress.
    The Agenda recognizes that high-quality child care helps children, 
families and communities prosper. It helps children learn and develop 
skills they need to succeed in school and in life. It gives parents the 
support and peace of mind they need to be productive at work. And it 
helps our Nation stay competitive, by producing a stronger workforce 
now and in the future. But for many families--especially, but not only, 
low-income families--high-quality child care is unaffordable or 
unattainable. The Agenda for Affordable, High-Quality Child Care 
proposes comprehensive, systemic reforms to ensure safe, healthy and 
affordable child care that promotes early learning and increased 
Federal funding to make these reforms possible.

               SECTION A: ENSURING HEALTHY AND SAFE CARE

    To ensure that all child care meets basic health and safety and 
child development standards, mandatory Federal funding for the CCDBG 
will be sufficiently expanded, and States will be required within 3 
years to use this funding to:

    <bullet> Have written health and safety standards appropriate to 
the setting of the provider and the age of the children that apply to 
all child care centers and family child care homes caring for at least 
one child not related to the provider for a fee on a regular basis. At 
a minimum, these standards must address requirements for first-aid, 
CPR, sanitation procedures and control of communicable disease, child 
abuse identification and reporting, background screenings, prevention 
of sudden infant death syndrome, emergency and disaster procedures, 
medication administration, and basic child guidance policies.
    <bullet> Require all providers in child care centers and family 
child care homes caring for at least one child not related to the 
provider for a fee on a regular basis to have at least 40 hours of 
appropriate and accessible health and safety and child development 
training, including training on State early learning guidelines and 
information about working with children with disabilities and other 
special needs, before providing care to children, and 24 hours annually 
thereafter.
    <bullet> Ensure that all children in child care centers and family 
child care homes receiving care from a provider not related to the 
child for a fee on a regular basis receive a developmental screening by 
qualified professionals and referrals for appropriate services when 
they enter care.
    <bullet> Inspect and monitor all providers in child care centers 
and family child care homes caring for at least one child not related 
to the provider for a fee on a regular basis at least twice a year with 
one or more on an unannounced basis to ensure compliance with these 
requirements.

    To support child care facilities, Federal funding will be 
authorized to:

    <bullet> Establish an ongoing pool of capital for the renovation 
and construction of facilities in low-income communities, including 
those serving families with limited English proficiency.
      This pool will be accessed through experienced non-profit 
facilities intermediaries that may use the funds to make grants and 
loans to child care providers for this facility renovation and 
construction, and to provide technical assistance on facility design 
and development.

                 SECTION B: MAKING CARE MORE AFFORDABLE

    To ensure that parents have access to a range of child care 
services, mandatory Federal funding for the CCDBG will be sufficiently 
expanded, and States will be required to use this funding to:

    <bullet> Provide federally funded child care assistance sufficient 
to double the number of children currently served nationwide.
    <bullet> Until the Quality Rating and Improvement System described 
in section C is in effect, establish maximum base reimbursement rates 
for providers caring for children receiving federally funded child care 
assistance at no less than the 75th percentile of the current market 
rate, based on a market rate survey that is conducted at least annually 
and that is statistically valid and reliable and reflects cost 
variations by geography, age of children, and provider type.
    <bullet> Develop and implement strategies such as higher payment 
rates and bonuses, direct contracting, grants, or other means of 
increasing the supply of care in particular areas of the State or for 
particular categories of children, such as care in low-income and rural 
areas, care for infants and toddlers, school-age children, children 
with disabilities and other special needs, and children in families 
with limited English proficiency, and care during non-standard hours, 
if shortages of these types of care are identified, and report annually 
to the Secretary of Health and Human Services on how these strategies 
are being used to expand the supply of this care.
    <bullet> Set a 1-year eligibility determination period for child 
care assistance.
    <bullet> Support a computer system to streamline administration of 
the State's child care assistance program.
    <bullet> Ensure that State payment practices for child care 
providers reflect generally accepted payment policies that providers 
use for their private-paying parents.
    <bullet> Provide grants to community-based organizations with 
expertise in serving populations with limited English proficiency to 
develop and implement effective outreach models to help eligible 
families learn about and obtain child care assistance.

    To expand assistance available through the Federal Child and 
Dependent Care Tax Credit, the credit will be improved through the 
following changes:

    <bullet> To help low-income families, the credit will be made 
refundable.
    <bullet> To help middle-income families, the sliding scale for 
determining the amount of the credit will be expanded so that it begins 
at 50 percent of expenses for families with incomes of $35,000 or less.
    <bullet> To help all families, the current expense limits of the 
credit will be maintained at no less than $3,000 for one child or 
dependent and $6,000 for two or more children or dependents.
    <bullet> To preserve the credit's value, it will be indexed for 
inflation.

         SECTION C: IMPROVING QUALITY TO PROMOTE EARLY LEARNING

    To improve the quality of care above the basic standards described 
in Section A, mandatory Federal funding for the CCDBG will be 
sufficiently expanded to provide States with additional resources so 
that States have the funding to invest in each of the following 
required activities:

    <bullet> Financial support for providers and programs to meet 
expenses necessary to achieve and maintain the standards and training 
requirements established by Section A, and to become licensed and 
regulated, with a priority for low-income providers and programs in 
low-income communities.
    <bullet> Establishment and operation of a statewide Quality Rating 
and Improvement System (QRIS) within 5 years for all child care centers 
and family child care homes providing care for at least one child not 
related to the provider for a fee on a regular basis and other early 
childhood education program settings as the State determines.
          <bullet> The QRIS must rate providers according to the 
        quality of care they provide, based on the extent to which they 
        meet criteria appropriate for each age group such as: an early 
        learning environment that promotes children's development and 
        school readiness and that is linguistically and culturally 
        appropriate, appropriate staff-child ratios and group size, 
        staff qualifications and education credentials and staff 
        compensation, opportunities for parent involvement, regular 
        program evaluation, inclusion of children with disabilities and 
        other special needs, and safe physical environment.
          <bullet> The quality ratings must be tiered, beginning at the 
        level of quality needed for providers to become licensed or 
        regulated, and increasing in quality to reach nationally 
        recognized high program standards.
          <bullet> The maximum reimbursement rate for providers caring 
        for children receiving federally funded child care assistance 
        in each quality tier included in the QRIS must be based on no 
        less than the 75th percentile of the current market rate for 
        that tier of care, based on a market survey that is conducted 
        at least annually and that is statistically valid and reliable 
        and reflects cost variations by geography, age of children, and 
        provider type.
          <bullet> The QRIS must include support for a credentialing 
        and compensation program that includes grants to assist 
        individual providers/teachers in child care centers and family 
        child care homes providing care for at least one child not 
        related to the provider for a fee on a regular basis in 
        obtaining the training, credentials, and degrees required by 
        each level of the QRIS standards and the State's 
        prekindergarten program, and increases their compensation based 
        on their level of education, with preference given to 
        providers/teachers in centers in which a significant share of 
        children served are receiving federally funded child care 
        assistance and homes that participate in the Child and Adult 
        Care Food Program.
          <bullet> The QRIS must include grants to assist child care 
        centers and family child care homes serving children receiving 
        federally funded child care assistance in achieving and 
        maintaining the progressively higher quality program standards 
        of the QRIS (other than those standards that address provider/
        teacher credentialing and compensation), with preference given 
        to centers in which a significant share of children served are 
        receiving federally funded child care assistance and homes that 
        participate in the Child and Adult Care Food Program.
          <bullet> The QRIS must include support for programs to train 
        and mentor individual providers/teachers in child care centers 
        and family child care homes providing care for at least one 
        child not related to the provider for a fee on a regular basis 
        in achieving and maintaining the progressively higher quality 
        standards of the QRIS, with preference given to providers/
        teachers in centers in which a significant share of children 
        served are receiving federally funded child care assistance and 
        providers in homes that participate in the Child and Adult Care 
        Food Program.
          <bullet> States must report annually to the Secretary of 
        Health and Human Services, starting 1 year after the QRIS is 
        implemented, on:

              <bullet> The quality standards that are necessary to meet 
        the requirements for each tier in the State's QRIS.
              <bullet> The numbers and percent of all children and of 
        children receiving federally funded child care assistance who 
        are receiving care from providers in each quality tier, by 
        children's age, children's race/ethnicity, and the extent to 
        which children have limited English proficiency.
              <bullet> The number and percent of providers that have 
        moved up at least one quality tier in the QRIS from the 
        previous year, including the number and percent of those 
        providers who are in low-income communities.
              <bullet> The strategies used by the State to increase the 
        number and percent of providers offering, and children 
        receiving, care in progressively higher quality tiers.

    <bullet> Support for a statewide network of child care resource and 
referral programs.
    <bullet> Additional supports to improve the quality of care.

    To improve the quality of services to children and families who do 
not speak English or have limited English proficiency, Federal funding 
will be authorized for grants or contracts to:

    <bullet> Develop, implement, and demonstrate the effectiveness of 
techniques and approaches for training child care providers with 
limited English proficiency to provide high-quality child care.
      Grants or contract will be awarded on a competitive basis to 
community-based organizations with experience and expertise in 
providing training to child care providers with limited English 
proficiency.

    To improve the quality of services to children with disabilities 
and other special needs and their families, Federal funding will be 
authorized for grants or contracts to:

    <bullet> Develop, implement, and demonstrate the effectiveness of 
techniques and approaches for training child care providers to provide 
high-quality care for such children.
      Grants or contracts will be awarded on a competitive basis to 
community-based organizations with experience and expertise in 
providing training to child care providers to meet the needs of 
children with disabilities and other special needs in community child 
care programs.

       SECTION D: IMPROVING AND EXPANDING INFANT AND TODDLER CARE

    To address the shortage of high-quality infant and toddler care, 
mandatory Federal funding for the CCDBG will be sufficiently expanded 
to provide States with significant new resources to expand the supply 
of high-quality infant and toddler care through each of the following 
activities:

    <bullet> Grants to establish and operate neighborhood- or 
community-based family and child development centers to provide high-
quality, comprehensive child care and development services to infants 
and toddlers. Grantees must be child care providers ranked at the top 
level of a State's QRIS. Priority for grants is given to centers in 
low-income communities.
    <bullet> Grants to organizations to establish and operate 
neighborhood- or community-based family child care networks and/or 
offer technical assistance to parents and other infant-toddler child 
care providers, including relative caregivers. Priority for grants is 
given to organizations in low-income communities, including communities 
with significant populations of families who have limited English 
proficiency.
    <bullet> Grants to an organization to support a statewide network 
of infant and toddler specialists to provide individual and/or group 
training and intensive consultation to child care centers, family child 
care homes, and relative caregivers on strategies to improve the 
quality of care for infants and toddlers, especially infants and 
toddlers in families who are eligible for federally funded child care 
assistance.
 section e: supporting research, technical assistance, and coordination
    To provide technical assistance and other support, mandatory 
Federal funding for the CCDBG will be sufficiently expanded, and the 
Secretary of Health and Human Services will be required to ensure that 
the following activities are conducted:

    <bullet> Within 2 years, the National Academy of Sciences will 
conduct a study and report to Congress on the actual cost per child of 
a full-year, full-day program of high-quality early care and education 
program that promotes the sound development of children, by age of 
child from birth to age 13, and by type of setting (center-based or 
family child care program), taking into consideration the additional 
costs of serving children with disabilities and other special needs.
    <bullet> The Department of Health and Human Services will provide 
technical assistance to States on developing and conducting 
statistically valid and reliable market rate surveys and identify 
acceptable approaches for States to use in developing and conducting 
market rate surveys.
    <bullet> The Department of Health and Human Services will identify 
acceptable approaches and criteria for States to use in developing each 
quality tier of the QRIS and provide technical assistance to States in 
developing their QRIS.
    <bullet> Each State every 5 years will conduct a study, applying 
methodology established by the Department of Health and Human Services 
to ensure comparability of data across States, and the Secretary shall, 
using the data submitted by each State, report to Congress every 5 
years on the characteristics of the workforce providing child care and 
development services to children birth to age 13, by age group served, 
geographic area, quality rating, type of care (including child care 
center, family child care home, prekindergarten, Head Start, and 
school-age care) and other significant variables, including providers' 
race and ethnicity, language status, credentials and training received, 
experience working in the field, and salary and benefits.

    To streamline, coordinate, and improve the effectiveness of child 
care and early education services and programs at the Federal and State 
levels:

    <bullet> The State child care plan for the CCDBG will be submitted 
to the State Advisory Council on Early Care and Education for comment 
before the plan is submitted to the Department of Health and Human 
Services for funding. The plan must describe coordination among child 
care, Head Start, State prekindergarten programs, and Part C and 
Section 619 programs authorized by the Individuals with Disabilities 
Education Act, including the ways in which Federal and State resources 
are to be used to help child care providers meet the State 
prekindergarten requirements and to help children enrolled in part-day 
prekindergarten and Head Start programs receive full-day services.
    <bullet> An Office of Early Care and Learning will be established 
within the Administration for Children and Families, and will house 
both the Head Start Bureau and the Child Care Bureau.
    <bullet> An Interagency Early Learning and After-School Council 
will be established, chaired by the Secretaries of Health and Human 
Services and Education, to coordinate Federal funding for child care 
and development programs and services for children birth to age 13 
across the Federal agencies that provide such funding.

    (Developed and endorsed by American Federation of State, County and 
Municipal Employees; Center for Law and Social Policy; The Children's 
Project; Early Care and Education Consortium; National Association for 
the Education of Young Children; National Association of Child Care 
Resource & Referral Agencies; National Association for Family Child 
Care; National Council of La Raza; National Women's Law Center; Service 
Employees International Union; and Zero to Three)

    Senator Dodd. Helen, once again thank you immensely; and so 
articulate; wonderful to hear that story about that woman from 
Maine. It's nice to hear that things actually work out. Those 
efforts--you wonder whether or not the results produce the 
kinds of events that you describe.
    Ms. Blank. She says so. She also ran the 5K and graduated 
with honors from junior college.
    Senator Dodd. Very good, I tell you. All because of the 
child care development.
    Ms. Blank. I didn't ask her to say that.
    Senator Dodd. Dr. Casserly, thank you so much for joining 
us today. You've been very patient.

        STATEMENT OF MICHAEL CASSERLY, Ph.D., EXECUTIVE 
    DIRECTOR, COUNCIL ON GREAT CITY SCHOOLS, WASHINGTON, DC

    Mr. Casserly. Good morning, Mr. Chairman. Thank you very 
much for the invitation to be here.
    I join with my colleagues this morning in thanking you for 
your outstanding contributions to the lives----
    Senator Dodd. I appreciate it.
    Mr. Casserly [continuing]. Of so many children and families 
across this country. Thank you. We honor you and the work that 
you have done.
    I'm Michael Casserly, executive director of the Council of 
the Great City Schools, the Nation's primary coalition of large 
urban school systems.
    And, to give you some sense of what a family affair this 
gathering is, our organization was founded by Sargent Shriver 
in 1956, when he was president of the school board in Chicago.
    Mr. Chairman, we have seen substantial progress in the 
education of our Nation's children over the decades you have 
served on this panel, despite the work that is still in front 
of us.
    In addition to the landmark Family and Medical Leave Act 
and expansions of the Head Start Program, you have played a 
critical role in the passage of the Education of All 
Handicapped Act, and its successor, IDEA; untold 
reauthorizations of the Elementary and Secondary Education Act; 
and student loan expansions.
    You have also been a strong proponent of Early Childhood 
Education, State school finance equity and afterschool 
programming. And, you were the first legislator to stand with 
us in calling for national math and science standards, which 
eventually morphed into the Common Core Standards that are now 
in place in so many States.
    All of this legislation has been important in expanding the 
opportunities for historically underserved populations and in 
boosting student achievement.
    Nowhere is this more evident than in our Nation's urban 
public schools. The number of large-city students reading at 
the proficient level or better on the National Assessment of 
Educational Progress, for instance, has increased by 35 percent 
among fourth graders since 2002; and the number of students 
scoring below basic levels has dropped by 18 percent.
    In addition, the reading gap between the large cities and 
the Nation narrowed by one-third between 2002 and 2009.
    The gains are more substantial in math. In fact, the number 
of large central city students scoring at the proficient level 
or better, has increased by 45 percent among fourth graders and 
50 percent among 8th graders. And, we have decreased the number 
of students scoring below basic levels by 24 percent.
    Still, we are far behind, and our racially identifiable 
achievement gaps are way too wide.
    Congress and this committee, in particular, should feel 
proud of its work over many years because it set the stage for 
these academic gains.
    In fact, Congress has been especially effective in 
articulating issues and defining priorities and then building a 
legislative infrastructure around those priorities, including 
an emphasis on the instruction of poor children, students with 
disabilities and English learners.
    Congress has also been particularly effective in targeting 
its scarce resources on school districts with the largest 
concentrations of need.
    This targeting of funds has been critical to the ability of 
struggling schools to overcome the effects of poverty and other 
barriers. The Nation's urban schools, in particular, have 
benefited from this targeting and have used these dollars to 
help spur the gains I have described.
    The Federal Government's continued support for the 
concentration of limited dollars in high-need communities is 
one of the wisest investments it can make.
    The Federal Government's work, in addition, to ensure civil 
rights and to conduct research on what works in education has 
also been important.
    Congress' efforts to build more accountability into public 
education has been critical.
    But there is still considerably more work to do. Research, 
in particular, needs to be expanded to better support school 
systems that are facing special challenges that they can't 
solve by themselves, including research on adolescent literacy, 
English acquisition amongst children, reading comprehension, 
and teacher quality, to name but a few.
    There are also new national educational priorities that 
Congress should consider as it moves forward. Despite our 
rhetorical attention to science, for example, the Nation's 
efforts in this area lack coherence and direction. Congress 
could change that.
    At one point, Congress also had a dropout prevention 
program, but eventually it abandoned that effort. The Nation, 
however, continues to lose too many young people before they 
attain a high school diploma.
    During the reauthorization of the Elementary and Secondary 
Education Act, Congress should re-focus on dropout prevention 
along with Secondary School Reform.
    Research is also clear on the benefits of early childhood 
education, but we can't seem to muster the public will to 
create a system that ensures that all of our children are 
served.
    Finally, Mr. Chairman, I want to call your attention to a 
report that my organization released last week, called ``A Call 
for Change: The Social and Educational Factors Contributing to 
the Outcomes of Black Males in Urban Schools.''
    I ask that it be included in the record.
    [The material referenced above may be found at www.edweek.
org/media/black_male_study.pdf.]
    It looks at the academic well-being and college and career 
readiness of America's African-American male youth; and the 
results are not anything that we should be proud of as a 
Nation.
    On almost every indicator of well-being we looked at, our 
Black male young people were coming up on the short end despite 
the fact that many city school districts were showing progress.
    We found that Black children were over twice as likely as 
white children to live in a household where no parent had year-
round or full-time employment. Black children were three times 
more likely to be raised in families living in poverty than 
other children.
    Black male fourth graders, Nationwide, were over three 
times less likely to read and do math at proficient levels than 
white males.
    Black males were about twice as likely to drop out of 
school, were less likely to take advanced placement exams, and 
scored some 100 percent lower than others on SAT exams. If 
these students make it into college, they are far less likely 
to graduate.
    At the end of this progression are unemployment rates among 
African-American males that are twice as high as white males, 
and imprisonment rates that are 6.5 times higher.
    Congress may not be able to solve all of the complicated 
issues surrounding this situation, but it is hard to believe 
that additional focus on this issue would not pay enormous 
dividends.
    That America squanders so much of its human talent does not 
bode well for our ability to maintain our global pre-eminence 
economically, financially, politically or morally.
    The great civil rights battles that you and Marian and 
others on this panel fought were not fought so our children 
could have access to mediocrity or failure. They were fought so 
our children could have access to excellence and the resources 
to pay for them.
    Congress should be proud of the work that it's done over 
the decades to improve access to, and the quality of public 
education in this Nation, but we still have so much more to do.
    Thank you very much, and I'd be happy to take any of your 
questions.
    [The prepared statement of Mr. Casserly follows:]

             Prepared Statement of Michael Casserly, Ph.D.

    Good morning and thank you for inviting me to testify before this 
subcommittee. I join many others today in recognizing and thanking 
Chairman Chris Dodd for your outstanding contributions to this 
committee and to the lives of so many children and families across the 
country. Thank you.
    I am Michael Casserly, executive director of the Council of the 
Great City Schools, the Nation's primary coalition of large urban 
school systems.
    Our 65 member urban school districts, which comprise less than 1 
percent of the Nation's 15,000 school systems, enroll some 30 percent 
of the country's students of color, English learners, and poor 
students.
    Mr. Chairman, we have seen enormous progress in the education of 
our Nation's children over the decades you have served on this 
important panel.
    In addition to the landmark Family and Medical Leave Act and 
expansions to the critically important Headstart program, you have 
played a critical role in the passage of the Education of All 
Handicapped Act and its successor IDEA; the Eisenhower Math and Science 
program; the Magnet School Program; untold numbers of reauthorizations 
of the Elementary and Secondary Education Act; the overhaul of the 
Bilingual Education Act, and student loan expansions. You have also 
been a strong proponent of early childhood education, State school 
finance equity, and afterschool programming. And you were one of the 
first legislators to stand with us in calling for national math and 
science standards in education.
    All of this legislation has played an important role in expanding 
opportunities for historically underserved populations and in boosting 
student achievement. Nowhere is this more evident than in the Nation's 
major urban public schools.
    The number of large-city students reading at the proficient level 
or better on NAEP has increased by 35 percent among 4th graders since 
2002. And, the number of 4th graders scoring below the basic level 
dropped by 18 percent between 2002 and 2009.
    In addition, the reading gap between the large cities and the 
Nation narrowed by one-third between 2002 and 2009. We are now just 10-
scale score points away from national averages at both 4th and 8th 
grade levels. We are not only improving; we are catching up.
    The gains are even more substantial in math. In fact, the number of 
large central city students scoring at the proficient level or better 
on math has increased by 45 percent among 4th graders and 50 percent 
among 8th graders since 2003. And we have decreased the number of urban 
students scoring below basic levels by 24 percent.
    Between 2003 and 2009, our large central city schools have narrowed 
the gap in math with the Nation by 20 percent in both 4th and 8th 
grades.
    Congress and this committee, in particular, should feel proud of 
the work it has done over many years, because it set the stage for 
these academic gains. It has been especially effective in articulating 
issues and defining priorities, and then building a legislative 
infrastructure around those priorities, including an emphasis on the 
instruction of poor children, students with disabilities, and English 
learners.
    Congress has also been effective in targeting its scarce resources 
on school districts and schools with the largest concentrations of 
need. This targeting of funds, particularly under Title I, Title II, 
and Title III of ESEA, are critical to the ability of struggling 
schools to overcome the effects of poverty and other barriers.
    The Nation's urban schools have benefited from this targeting and 
have used these dollars to help spur the gains I just described. The 
Federal Government's continued support for the concentration of limited 
dollars on high-need urban and rural communities is one of the wisest 
investments it can make.
    The Federal Government's work to ensure civil rights and to conduct 
research on what works in elementary and secondary education has also 
been important, although clearly much more needs to be done.
    Finally, Congress's efforts to build more accountability for 
results into public education have also been important, although they 
were hampered by the fact that not everyone was being held accountable 
to the same standards--something that the new common core should solve 
in time.
    There is still considerably more work to be done, however, even in 
an era when the public is rethinking the Federal role in education.
    Research, in particular, needs to be expanded to better support 
school systems that are facing special challenges they are not 
necessarily able to solve by themselves, including new research on 
adolescent literacy, English acquisition, instructional interventions, 
reading comprehension, and teacher quality and incentives--to name but 
a few.
    We know surprisingly little, for instance, about why some teachers 
are more effective instructionally than others. Nor do we have a firm 
grip on how to boost the effectiveness of teachers after their 5th year 
or so in the classroom.
    Considerable research is also needed on effective instructional 
strategies to boost reading comprehension, particularly with students 
in grades 4-8. Nationwide, NAEP reading scores in the 8th grade have 
been surprisingly flat for many years, and educators have been left 
without much direction about what to do about it.
    There are also national educational priorities that Congress should 
consider as it moves forward. Despite our rhetorical attention to 
science, for example, the Nation's efforts to address our deficiencies 
in this area continue to lack coherence, definition, and leadership. 
Congress could change that.
    At one point, Congress made dropout prevention a legislative 
priority, but abandoned the program after considerable squabbling about 
how it was structured. The Nation, however, continues to lose too many 
young people before they can attain a high school diploma, much to 
their economic and social detriment and the Nation's.
    During the reauthorization of No Child Left Behind, Congress should 
consider an effort that focuses exclusively on dropout prevention, 
research, and demonstration--along with secondary school reform.
    The research is also quite clear on the benefits of early childhood 
education, but we can't seem to muster the public will to create a 
system--public and private--that ensures that all children who need 
services can receive them.
    Finally, I want to call your attention to a report that my 
organization released last week--``A Call for Change: The Social and 
Educational Factors Contributing to the Outcomes of Black Males in 
Urban Schools.''
    It looks at the academic well-being and college and career 
readiness of America's African-American male youth. And the results are 
not anything we should be proud of as a nation.
    On almost every indicator we looked at--spanning infant mortality 
to career advancement--our Black male young people were coming up on 
the short end, despite the fact that many city school systems--like 
Atlanta, Boston, New York, Baltimore, and others--were showing 
substantial progress.
    We found that Black children were over twice as likely to live in a 
household where no parent has year-round, full-time employment.
    Black children are three times more likely to be raised in a family 
living in poverty than white children.
    Black male 4th graders nationwide were over three times less likely 
to read and do math at proficient levels than white males nationwide.
    Black males are about twice as likely to drop out of school; are 
less likely to take advanced placement exams; and score on average over 
100 points lower than white males on SAT college-entrance exams.
    If these students make it into postsecondary education, they are 
far less likely to graduate in 4, 5, or 6 years than white males.
    At the end of this progression--when the cycle begins anew--are 
unemployment rates among African-American males that are twice as high 
as for white males, and imprisonment rates that are 6.5 times higher 
for Black males than for white males.
    Congress may not be able to solve the complicated issues 
surrounding this situation, but it is hard to believe that additional 
thinking and investment in this issue and the problem of high school 
dropouts would not pay enormous dividends for the Nation in both the 
short and long term.
    That America squanders so much of its human talent does not bode 
well for the Nation's ability to maintain its global pre-eminence 
economically, financially, politically, or morally.
    Congress should be very proud of the efforts it has made over the 
decades to improve the access to and the quality of public education in 
this Nation. But we still have so much more to do.
    Thank you and I'd be happy to take your questions.

    Senator Dodd. Well, thank you, Doctor. And, thank you for 
your work as well; tremendously helpful and tremendously 
valuable.
    We're fortunate on this committee, we've got my good 
friend, Michael Bennet, who ran the school district in Denver, 
CO, and has brought already tremendous wealth and talent and 
ability to the discussion that is ongoing with the Obama 
administration on educational reform.
    I only regret I won't be around to watch that develop but 
I've got a lot of confidence in Senator Bennet leading that 
effort here, and along with others, to see that we move in the 
right direction.
    I'm going to ask a couple of broad questions as far as your 
comments. There's an awful lot you've said, just in terms of 
the realities we're looking at here.
    We've got this Commission on Deficit Reduction, which is 
obviously getting a lot of attention in the news, and the 
change in the political dynamic in the institution of this 
building now with the House under the control of one set of 
hands, the Senate in another, pulling all of this together.
    There's an awful lot that goes on. A lot of silos that we 
talk about here at the Federal level, and how we weave these 
together in some sort of a coordinated fashion.
    Helen said something which I, in reading over your 
testimony, was struck with and that I agree with. It comes down 
to almost a simple sentence, in my view, in many ways. If 
families are doing well, children do well. I mean, maybe it's 
an over simplification, but if you had to get to one single 
point, if a family's got a job, which is a decent paying job--
I've often said maybe a million times in 30 years, the best 
social program ever created was a good, decent paying job. An 
awful lot happens when that occurs.
    Peter, your statistics on what's happened to our economy--
Bernie's points before he left a few minutes ago, in his 
opening comments about just the de-industrialization of America 
and this gap that has existed with the lack of economic 
opportunity and upward mobility, both individually, as a 
country, are deeply worrying and disturbing.
    I wonder if you might comment again--not so much for me, 
but for our staffs who are here and others, to wet the appetite 
to want to do this and get this right. It may vary to some 
degree, but everyone understands this. The question is, how do 
we weave this together in a way that avoids the silo approach 
to it, that would give us the opportunity to have a more 
coordinated effort to focus on these questions?
    Marian, let me begin with you, if I can. That's really to 
break down those silos--and how can Congress help change its 
thinking about these problems in a way that gives them the 
opportunity to understand that what they're doing is not just 
slicing pieces off of this, but gives them a sense of the 
whole.
    Ms. Wright Edelman. Well, I think looking at the whole 
child is very important.
    Senator Dodd. Yes.
    Ms. Wright Edelman. And, again, children don't come in 
pieces; they come in families. Families need jobs and a range 
of support to do a good job. Families are affected by the 
policies of their communities and their local and State 
governments.
    Children don't come in pieces, either, as they grow up. We 
need a continuum of care from before birth up through 
adulthood; and we keep grabbing onto one piece of it----
    Senator Dodd. Yes.
    Ms. Wright Edelman [continuing]. And we try to repair the 
ankle and then say, why is the whole child not good. Or, we 
repair this little piece. Good policy should be like good 
parenting. There's no parent who would give their child safety 
and not give them a roof over their heads or good food.
    That's why we've been in--and you have been very helpful in 
this in trying to talk about a comprehensive act to really 
leave no child behind, but that means really providing the kind 
of comprehensive, continuous care that protects children in the 
context of their families, and that gets them from before birth 
through transition to adulthood.
    We know how to do it, and we should really model it on what 
every parent wants with their child. There are a lot of pieces 
in place, but we need to now make it more systematic.
    I would really like to see us put together now a child 
emergency investment bill that really talks about what we do in 
eliminating poverty, creating jobs for parents, but giving them 
the prenatal care, because millions of our children are sort 
of, born with two or three strikes against them.
    Senator Dodd. Yes.
    Ms. Wright Edelman. And then they don't get the early 
education and so we have to get them born healthy with prenatal 
care, we've got to make sure they all get the preventative 
health and mental health care, and we need to make sure that 
they are ready for school; and in those early years, we need to 
make sure that every school is ready and expects every child to 
learn; and we need to make sure that they have stimulating, 
after-school time and summertime, because they can't be idle. 
Give them what we want for our own children. They need to have 
work experiences and service experiences. I mean, we've got all 
these disconnected youth who have never seen work, and never 
seen anybody work.
    Senator Dodd. No.
    Ms. Wright Edelman. And, so we know what to do. The 
question is, how do we get that kind of comprehensive vision? 
And, we may have to renovate the whole house, room by room, but 
we should start. But, we should have that vision of a whole 
house that is safe for all children.
    Senator Dodd. Does anyone else want to comment on this at 
this point?
    Mr. Edelman. Just briefly.
    Senator Dodd. Peter.
    Mr. Edelman. Senator, I would remind everybody of something 
that you did during the Clinton administration. My fond memory 
of it is that it originated in a conversation at our house, but 
you----
    Senator Dodd. As many, many ideas did.
    Mr. Edelman [continuing]. You proposed, and got enacted An 
Ounce of Prevention Council in the Federal Government. And, I 
would suggest going back to that, and for the Senators who 
remain on the staff, to work on something that puts real teeth 
in making the departments of the Federal Government connect to 
each other and pools resources, so that it deals with whole 
children and families, and so that it incentivizes and pushes 
people at the local level to pull together the relevant public 
agencies and the relevant private participation in it, so, just 
to revive that and reinvent it.
    Second, it just reminds me to say something about the 
compartmentalization of the debate that's taking place between 
education and poverty, because I'm kind of sick of it. Where 
we've got these dueling statements--and we've got one side 
saying, which I think is correct, and I don't know why 
everybody doesn't agree--that we don't attack both what's going 
on in the schools and have reform of what's happening in the 
schools, and see to it that children are living in families 
that have adequate incomes and they're not coming to school 
hungry, if we don't do both of those things, we're going to 
keep on losing.
    Senator Dodd. I agree, too. You know, I wanted to make 
this--we're always having, in a family of teachers--a sister of 
mine just finished 40 years of early childhood work in the city 
of Hartford. In the last school she was in they were using a 
lot of the early Montessori techniques which she developed back 
in the 1950s at Whitby School in Greenwich with Nancy Rambusch 
and others who were pioneers in the efforts to incorporate some 
of those ideas. We overload them.
    The notion of connecting the family with the educational 
process--and I realize teachers get resistant to this notion 
idea--I've often wondered why we don't do a better job of 
asking teachers to become more knowledgeable about the families 
from which the child comes when they enter that classroom. They 
sit down at that school desk in the morning. That child has 
come from someplace.
    And, at the end of that day, they're going back to 
someplace. And that someplace has a profound, profound effect 
on what happens during those 5 or 6 hours that that child is 
sitting in front of you.
    The fact that there seems to be so little effort to really 
understand what the circumstances are that that child has left; 
maybe without a breakfast, maybe an abusive situation, maybe a 
violence-ridden neighborhood; all going back to that as well, 
and then wondering why that child isn't performing as well, or 
lacks the skill sets and so forth.
    It seems to me unless you start making that nexus and 
creating that connection, No. 1, I think it does a tremendous 
amount of advancing the quality of the education of the child, 
but also raising a little awareness, within an educational 
setting, of where these children are coming from and what 
they're facing. I don't mean just in poor neighborhoods. This 
can be a problem in affluent neighborhoods. It isn't just a 
question of economics. It can be a lot of other things 
occurring.
    I wonder if you might, Dr. Casserly, quickly--and then I'm 
going to turn to my colleagues, because I've spent a lot of 
time talking and chatting here, so I want to hear them. They're 
going to be carrying the ball, anyway, from here, so they ought 
to be asking the questions.
    Mr. Casserly. Let me go back to your original question 
about silo behavior and maybe Congress' role in that. I'm not 
always convinced that silos are the problem; and heaven knows, 
at least in the education arena we have lots of silo-like 
behavior that we're constantly having to fight against. That's 
why I'm not necessarily the right person to address this issue.
    Sometimes Congress can actually contribute to the issue by 
passing lots of very small programs that don't necessarily have 
broader priority or support, that actually contribute to some 
of the silo-like behavior once you get down to the State and 
local level, and everybody then has a stake in trying to 
protect that individual little piece.
    If a program is important enough to pass, it may be 
important enough to either be large enough or to be folded into 
some larger, more systemic effort of the kind that Marian is 
talking about.
    Senator Dodd. Yes, that's a good point. Well, I'll go to my 
colleagues that have shown up here. Bob, I think you were 
grabbing the gavel over here a little prematurely, I thought, 
from me.
    [Laughter.]
    Bob Casey has been a terrific friend and all--early, early 
on when he first arrived here he approached me and said that he 
really, really wanted to get involved in these issues. A great, 
great asset to us; and did a lot of work before he arrived, on 
these issues as well.
    I say this to my colleagues here: I thought your opening 
comments were just right on, as they always are, in my view. 
And, I mentioned already, Michael and former Speaker in Oregon 
who brings great knowledge to these issues in some of the 
States, Jeff Merkley.
    I'm going to be disappointed, I'm not here--I'll be less 
than honest if I didn't say--but, I'm very, very excited about 
the people who are here. I care about this very much. There's 
four of them right here, but you couldn't have four better 
people to carry on a tradition to worry about kids.
    Bob Casey, do you want to comment? Bob.
    Senator Casey. Mr. Chairman, thank you very much; and we'll 
keep getting you back here one way or the other, somehow.
    I want to thank our witnesses, and I want to apologize for 
having to run out and come back in, as I missed some of the 
testimony.
    One thing I wanted to ask--and maybe I'll start with Marian 
Wright Edelman, if you don't mind. You get all the tough 
questions on a regular basis, I know.
    I wanted to ask you, and then open it up to all of our 
witnesses: If you had to pick one or two substantial steps that 
the Congress could take in, literally, the next 6 months or the 
6 months starting in the new Congress, what would that be? I 
mean, what would your hope and your expectation be for the next 
6 months or even the next year?
    Ms. Wright Edelman. I would like to see you fund fully, the 
Early Learning Exchange and Head Start and child care. We need 
to put in place a comprehensive early childhood system in this 
country. And, so, I would really talk about how we do really 
significant advances, investments and getting every child ready 
for school, and going to scale.
    Second, I would like to see us, as title I gets 
reauthorized, make sure that we have a fair funding formula and 
that the formula is not continuing to be stacked against 
children in areas of concentrated poverty.
    We need to see how we can look at title ID and see if we 
can if we can have a real dropout prevention policy for the 
most vulnerable children at risk, and children who are coming 
back into the community from juvenile detention and from public 
affair systems.
    We need a dropout prevention policy, and I think we have a 
chance to try to put into place a title ID, something we 
acknowledge exists, but we comingle the money for them, and so 
they're not really getting the services that's going to allow 
them to get back on the path to successful adulthood.
    We've got a great opportunity with child care and Head 
Start and the Early Learning Exchange and with title I to be 
able to make some real strides for--because of no jobs and jobs 
for young people and disconnected youth is just disastrous 
what's going on in poor minority communities.
    We don't really have a jobs strategy, and we need to try to 
do that so that they will have an incentive to stay in school. 
If you don't see anybody working, you don't see there's going 
to be the jobs out there, and the drug dealer is the most 
visible person, then you're not going to sort of have a way of 
making them be excited about learning.
    I would just say jobs, jobs, jobs. The Youth Promise Act, 
that you had been so importantly engaged with, we need to get 
investments and prevention, to get more of these young people 
out of the juvenile justice system and into jobs, and keep them 
in school.
    I put some of that in testimony, but I will also sort of 
submit for the record--but early childhood, good education, and 
I mean, fair--fair funding, and title I, and job creation and a 
way for these young people who have already gotten into 
difficulty to come back into the community.
    Senator Casey. I don't know whether we go left or right or 
if anyone else--Dr. Satcher, would you----
    Dr. Satcher. Yes, I want to--and I think I'm responding to 
the last two questions. The Patient Protection and Affordable 
Care Act has a component that I think far too few people have 
read, and it's for prevention agenda.
    It calls for the development of a prevention council to be 
chaired by the Surgeon General; and the Council will be made up 
of the secretaries of all of these agencies; Commerce, 
Education, Labor. I think it's the best approach I have seen 
yet, bringing people together and recognizing that all policy 
is health policy.
    In other words, labor policy is health policy; 
environmental policy is health policy; education policy is 
health policy. If we are able to implement this prevention 
agenda, which is--it doesn't have a lot of funding--I think 
$500 million this year; then it goes up to about $2 billion a 
year after 2015. Prevention, I agree, is the key. And, there's 
no better time to invest in prevention than with children.
    If we can really implement this prevention agenda, and as 
we see it working, I think, will provide more funds for it, I 
think it will deal with many of the issues that Marian and 
others have talked about here. And certainly will deal with the 
silos, because it brings together all of these agencies around 
the issue of how can we do a better job of preventing problems 
before they begin.
    Senator Casey. Anyone else? I know I'm running out of time.
    Ms. Blank. Can I go?
    Senator Casey. Yes, or Peter.
    Mr. Edelman. Please.
    Ms. Blank. I would tell you to do no harm. We do have 
300,000 children who, unless our money is continued, are going 
to be on the streets. We're going to see Head Start and Early 
Head Start classrooms that were just opened up, close down; 
nowhere for the children to go; and providers are going to lose 
their jobs.
    There are 10,000 children on the waiting list for child 
care in Pennsylvania.
    The clock is ticking, and we will really go backwards; and 
we can't afford to in early childhood.
    As you move into the next session and you look at deficit 
reduction, listen to Peter about the earned income credit and 
the child care tax credit, we do have to support families, and, 
I'm not sure it's silos that are our problem, or that we don't 
create systems.
    If we had good early childhood and good health and good 
family income, they'd come together. But we don't have the will 
to invest.
    In the next 6 months it's really important that we keep 
what we have because if you look at what's out there in early 
childhood and for children and what's happening in States, we 
can't slip backwards. We won't have a system to build on.
    Mr. Edelman. Helen said the specific things I was going to 
say, and, of course, I agree with Marian, for a lot of reasons.
    [Laughter.]
    I would just add that I know all of the Senators and all of 
us in this room--I hope Congress is going to act before 
November 30 to continue the extended unemployment benefits that 
are a lifeline for such a huge number of people.
    Senator Casey. Thank you. I know I'm out of time, and we 
will get some other questions submitted for the record. Thank 
you.
    Senator Dodd. Thank you very much, Bob.
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman, and thank you very 
much for holding this hearing, and for your leadership over all 
these years. We all wish you were staying, as well. I certainly 
do.
    Senator Dodd. Thank you.
    Senator Bennet. One of the saddest moments of my Senate 
career--a very short career--was learning that the observation 
that you're entitled to your own facts but not your own 
opinion, was not original with me, because I've been saying it 
over, and over, and over again in town hall meetings all over 
the State of Colorado, especially when you're being paid by the 
taxpayers for the privilege of serving in one of these jobs.
    You said at the outset that we hear these statistics and, 
you know, they sort of blow by us, and it's so true.
    I did a little math among the people that are sitting 
behind this panel; and if they were children living in poverty 
in this country, roughly four or five of them could expect to 
graduate from a 4-year college, but everybody else in the room 
wouldn't. Roughly six of you would be proficient mathematicians 
in the 8th grade. The rest of you wouldn't. If you are 
incarcerated people in our country, I'd have to get all the way 
over there before I could find one person that had a high 
school diploma in our prisons.
    And, to Peter's point earlier, we just came out of a period 
of economic growth before we were driven into the worst 
recession since the Great Depression, where the median family 
income fell. The first time that's happened in the history of 
this country. Created no new jobs since 1998 in this country. 
And, household wealth is the same at the end of the decade as 
it was at the beginning. That's never happened before.
    On top of all of it, we've got $13 trillion of debt on our 
balance sheet. And, I've been attacked for saying this, but in 
my judgment, we have almost nothing to show for it. We haven't 
invested in our roads, our bridges, our wastewater systems, our 
schools. We haven't even maintained the assets that our parents 
and grandparents built for us, much less built the 1st 
infrastructure we're going to need in the 21st century; 
transportation, transit, energy.
    We are in a deep, deep hole working in a town where the 
political debate, in my view, is almost utterly unmoored from 
the facts, almost completely unmoored from the facts.
    I share the Chairman's view on the question of silos--
having been on the receiving end of this, at least on behalf of 
the children in the Denver Public Schools who are really on the 
receiving end of the silo efforts that are in Washington. 
That's something that I believe we have to work on, 
desperately, desperately need to work on.
    The other question I have for the panel along those lines 
is, in view of all of that, everything that I just said, and 
everything that we know, there is going to be priority-setting 
here. There's going to have to be, because if we don't deal 
with the deficit and the debt problem the capital markets are 
going to decide that question for us, and all of these programs 
are going to go away.
    And, my question for those of you that have been around 
this a lot longer than I have been around this, is, how would 
you suggest we approach, as a process question, this priority-
setting that needs to happen?
    How do we have a more comprehensive discussion about the 
priorities in a country that is used to being the leader in 
innovation, but may not be anymore; is used to having led the 
world in the production of college graduates? Today we're 12th 
or 15th in the world. That's just, by the way, over 10 years.
    How would you recommend we try to create the shared 
understanding of the facts that the Chairman talked about? Or, 
have I sufficiently depressed everybody?
    [Laughter.]
    Mr. Casserly. Let me take at least a first crack at it 
while everybody's thinking. My sense is this----
    Senator Bennet. I only ask the question because this is how 
I start and end every day. And I don't have the answer myself.
    Mr. Casserly. And, by the way, Mr. Chairman, just for the 
record, this question exemplifies why Senator Bennet is not 
only an excellent Senator, he was also an outstanding school 
leader in the Greater Denver.
    Senator Bennet. Thank you.
    Mr. Casserly. Again, while everybody's thinking--my hunch 
about this is that frankly, there is no other body in the 
United States who is capable of sorting out these priorities 
other than the Congress of the United States, the 50 disparate 
State legislatures, the governors, all the independent 
organizations, and the like, really are not equipped to sort 
through all of the various needs and priorities that we have. 
It's Congress that needs to do that; and frankly, this panel, 
and the larger committee, is perfectly equipped and well-
positioned to have that debate about what's priority, and what 
might need to fall off the cliff, and is no longer a priority 
anymore.
    I know this is probably not the answer that you want to 
hear, but I think the answer rests right here, in this 
committee.
    And now maybe everybody else has a better answer.
    Ms. Wright Edelman. Well----
    Mr. Edelman. I'm sorry. Go ahead.
    Ms. Wright Edelman. No, go ahead.
    Mr. Edelman. Well, the first thing I would say, Senator, is 
that we need some leadership to say--from this body, from the 
President--that you need to take an immediate view and a long-
term view of this.
    I don't care what the economists say--that the recession is 
over and that all the people on Wall Street, are making those 
obscene amounts of money again--because there, as we all know, 
are millions of people out there who don't have jobs.
    If we had a fully honest debate about this--I don't have to 
run for office, so I can say this, obviously--we would talk 
about the fact that we still need to be putting money out there 
in various ways to prime the pump of this economy to get it 
moving again. And, that's before we get to what is a very real 
problem, with which I fully agree. That's the first thing.
    The second thing is, some leadership in the Democratic 
Party, and among everybody who is thinking, in my view, 
constructively, about the ratio between taxing people and 
cutting spending, because what we're hearing from, initially 
from the co-chairs of the President's Debt Commission, makes no 
sense. And, that's connected to what Marian talked about--about 
these continuing incredible tax cuts to the wealthiest people 
in this country who absolutely don't need it, and who are 
sitting wherever they sit, having a very good time watching 
everybody talking about it to their benefit, who, in fact, 
isn't going to get anything out of it. I don't get that.
    We need those revenues to run our country. They're part of 
our community, too. They should think of themselves as part of 
the United States of America's society for every one of the 
people who lives here. And, they should contribute to it.
    That's a ratio of what we need to do.
    Then, we need to have a conversation about national 
priorities that talks about where we're spending money, 
including on the defense side, including on a lot of other 
things that we do--insisting that we're going to protect our 
country, of course, so that everything's on the table to be 
judged on the merits.
    And then we can get into--we're still going to have some 
pain. We're still going to do some things that we don't want 
to, but I don't think the premises are correct right now.
    Dr. Satcher. I'll be brief. I think the priority ought to 
be to invest in children. I think we probably all agree on 
that. And I think that investment should be in health promotion 
and disease prevention; and I think it should be looked at 
comprehensively, all of the things that impact the promotion of 
health of children and of prevention of disease in children.
    Ms. Wright Edelman. I just want to be very simple. I mean, 
I just think, what do we stand for? I think you start with what 
are your values, and what is the dream of America.
    I just don't understand any country that could say, ``We're 
the wealthiest in the world'' and let its children be the 
poorest; and you know, not get the basic health care--I think 
that it should--the country that does not stand for its 
children doesn't stand for anything; and we don't, and we're 
going to be punished for it in the lack of a future, in the 
lack of competitive things.
    If America can't stand for its children like every other 
rich and industrialized Nation, who has more sense than we do, 
we're going to fall; and we're going to deserve to fall, and to 
fail. And so that the statistics that all of us have shared 
today are our economic downfall, but they're also our moral 
downfall.
    Second, Dr. King's last sermon title, that he called his 
mother the day he got assassinated, was about why America may 
go to hell. And, he talked about America will go to hell if we 
don't use our vast resources to help the poor. And, he died 
trying to get a poor people's campaign.
    What kind of country takes from the poor and the weak 
children and gives it to the rich and the powerful 
corporations? I mean, who in the world are we?
    I think you start from a values premise of how we create a 
just and fair playing field for every citizen, how we leave the 
country better and more just than we found it as adults and 
grandparents.
    So the whole point is, is what are we going to stand for in 
the world? Are we going to be a beacon of what democracy can 
be? I would hope that we can begin to get back to our senses 
and the basic reasons why the American dream is called the 
American dream; and it certainly isn't, go backwards and eat up 
the seed core in the future, and it certainly isn't letting 
your most vulnerable suffer.
    We say we come out of a Judeo-Christian tradition; and I 
think we ought to begin trying to apply.
    Senator Bennet. I'm way over, Mr. Chairman, but I think you 
said it even more simply at the beginning, which was, part of 
our job was to make sure we're creating more opportunity, not 
less, for our kids and our grandkids.
    And, if I had to say there was just one animating thing in 
the town halls that I've done in the last 22 months, whether 
it's Republicans or Democrats or Tea Party Folks or whoever it 
is, that is a principle that everybody agrees with; and my own 
view is, there's not enough of that, that leading the way in 
this town these days.
    So, I'd like to thank the panel.
    Senator Dodd. Very good. Michael, thanks very much.
    Bernie, thank you very much.
    Senator Sanders. Mr. Chairman, thank you for assembling 
what I honestly believe is one of the best panels, the most 
knowledgeable panels, most moral panels that I've heard since 
I've been in the Senate. It's a great group of people, and I'm 
glad you brought them together.
    Just a few points; then I've got a couple of questions.
    Peter, I absolutely agree with you. In 3 hours, in terms of 
the so-called Deficit Reduction Commission, we're going to be 
holding a meeting here with some of the more progressive 
Senators, House Members, etc., to say that--yes, we've got to 
deal with the deficit, but not on the backs of poor people and 
the middle class. We've got a huge expansion of military 
spending, great gap between the very rich and everybody else.
    There are ways to deal with the deficit without cutting 
back on the needs of ordinary people.
    Marian, I think you touched on--you made a point that has 
come up time and time again, about what other countries are 
doing. Other countries apparently understand something that we 
don't--that it makes a lot more sense to invest in your 
children than invest in jails. It cost more money to keep 
somebody in jail than to send them to Harvard University.
    Ms. Wright Edelman. Precisely.
    Senator Sanders. Say a word like Marian, or Peter or 
anybody else, to talk about in terms of early childhood 
education; how we compare to other countries around the world, 
and whether or not--not only from a moral sense of preparing 
our kids for school, but just from an economic sense, whether 
it doesn't make more sense to keep kids healthy, Dr. Satcher, 
keep kids in school, or whether you let them drop out of school 
and we pay for their jail cells.
    Compare what the United States is doing to other rational 
industrialized countries, Dr. Satcher. Did you want to----
    Dr. Satcher. Well, when I started out, I talked about my 
experience with the World Health Organization, and our 
Commission on Social Determinates of Health.
    And, one of the most impressive things to me was to visit 
countries like Chile; that it decided that it was better to 
invest in the children, especially of the poor, in terms of day 
care and education and good nutrition, physical activity. And 
they reasoned that later on it would save on the cost of 
medical care, but also save on the cost of jail and prison.
    Sweden, I think has been doing that much longer. It was 
great to see a country like Chile that had made this decision 
and now they were carrying it out.
    We went to day care centers. We went to elementary schools, 
to junior high schools, where they had model nutrition and they 
had model physical activity programs. They were investing in 
these children. It was their strategy.
    Senator Sanders. From an economic point of view----
    Mr. Edelman. That's right.
    Senator Sanders. Not just from a moral point of view.
    Mr. Edelman. That's exactly right.
    Senator Sanders. Well, let me throw out another question. 
Somehow, you know, the Government of the United States hasn't 
quite caught on that the world has changed since the 1950s; 
that mommy is not home with the two kids while daddy is out 
working. It's amazing how little we have reached that 
understanding.
    God didn't create schools beginning at the age of 5.
    Marian, or anybody else, if you could snap your fingers, 
what kind of early childhood--would you divide, in fact, early 
childhood education from education in general; or would you 
say, ``Well, you know, for the working parents, if you want to 
send your kid to a good quality, early childhood or preschool, 
that's available to you, how would you proceed?''
    Is that idea that school begins at age 5 a little bit 
outdated at this point?
    Ms. Wright Edelman. Well, I think that we should have a 
high quality comprehensive, early childhood system that fits 
within the needs of our children. And, I know how much concern 
you have, and what a strong proponent you've made.
    I think the children who are zero to three have different 
needs, and we really should talk about the age of a child and 
what's going to be developed that's mentally appropriate, and 
4- and 5-year-olds may need something different.
    Even though the school is the one universal system that we 
have, I'm not just for lowering the school age down, 
particularly when we've got--from my point of view, schools 
need to do--they're not doing such a good job with the children 
they have. So, I wouldn't want to get them younger.
    Not to say that we wouldn't have schools as a integral part 
of a delivery system in rural areas and other areas where that 
may be the best way to do; but I just think we need to look at 
the developmental needs of children and the needs of parents; 
and then figure out what kind of system----
    Ms. Garner. It's parental support.
    Ms. Wright Edelman. It's parental support, and then again--
and talk about all the range of family supports from zero up 
to--through schools and through graduation from schools and 
into college that we need.
    I'm for a little bit more diverse delivery system, even 
though the school ought to be the key, and the school ought to 
be made to do their jobs.
    Senator Sanders. Dr. Casserly, did you want to jump in?
    Mr. Casserly. Yes. I generally agree with Marian's 
perspective on this. I think a diverse provider model for early 
childhood education makes a lot of sense. Everybody has a 
substantial role to play in this issue; schools do, the Head 
Start agencies do, and other child care providers do.
    Whoever does the providing, though, the basic point is that 
the research is really quite clear on this issue, that by the 
time the children are 2 and 3 years old, what eventually 
becomes the academic achievement gap is already there.
    And, if we do not do something about that in the earliest 
possible years of development, then the gaps that we see all 
the way through schools, that schools have been so unable to 
close, will simply be continued and reflected in schools, and 
maybe even perpetuated by----
    Senator Sanders. What you're saying, essentially, is that 
permanent damage is now being caused to many very, very young 
children, and we're asking schools to do something which is 
extraordinarily difficult because the damage has already been 
caused.
    Mr. Casserly. By not attending to early childhood 
education----
    Senator Sanders. Right.
    Mr. Casserly [continuing]. In this country and early 
childhood development, I think we do do damage.
    Ms. Blank. We are seeing a growing number of States do pre-
K programs, and in some States it's actually part of the school 
finance formula, which is the best way to finance it, because 
we haven't found another way.
    And, in many States, it's a diverse delivery system. It's 
not just the schools.
    Senator Sanders. Right.
    Ms. Blank. Like in New York State, about 60 percent of the 
pre-K is delivered in schools in early childhood settings, in 
child care or Head Start Programs. And, I think we all agree 
that would be better for young children.
    The challenge--and it will probably be mostly the threes 
and fours that will eventually be in the schools--is that 
you've got to pay attention to the needs of working parents. 
And everybody wants to make it simple and to make it cheap, but 
the truth is, when we look at pre-K, most of it is 2\1/2\ hours 
a day.
    In Iowa it could be 3 days. It's only a maximum of 12 
hours.
    So, you actually need the full day child care subsidy to 
make it fit for working parents, because I don't think 
schools--and that would be ideal if somebody wanted to pay 
through the school system to have the 10 hours, 52 weeks a 
year.
    Senator Sanders. Well, let me just pick up there.
    Ms. Blank. We have to be careful when we talk about this so 
children don't fall through the cracks.
    Senator Sanders. Let me tell you a happy story. This is 
from a terrible earmark that I got that went to schools in 
Vermont--low-income schools.
    We ran a summer program 40 hours a week so parents could 
feel comfortable. Their kids were out in recreational programs, 
in this case, through the schools, as well as learning 
programs. Walked into the school. These kids were excited. They 
couldn't wait to get to school in the middle of the summer. 
And, what the teachers then tell you and what the principal 
says, these kids are ready to go when school starts. They 
haven't lost what they learned in May and June. A modest 
investment.
    But, it was full-time; parents felt great about it; kids 
felt happy to be in school.
    David.
    Dr. Satcher. I just want to support the concept of 
supporting parenting. When we did the Surgeon General's Report 
on Youth Violence Prevention, I'll always remember it was the 
only report that I did that was requested by both the President 
and the Congress, because after the Columbine shooting we 
looked at several strategies for youth violence prevention, and 
concluded that those programs that included supporting parents, 
starting with pregnancy--and then we have a lot of teenage 
parents--and then in these programs there was a visiting nurse 
who went and visited these parents while they were pregnant and 
talked about parent-child bonding.
    And then that went on after the child was born for at least 
a year or more.
    We're doing some of those things now in Atlanta.
    The whole idea is that, if you can strengthen parenting, in 
terms of nutrition, in terms of communicating with the child, 
early child development, it pays off.
    We saw a 50 percent reduction in those populations where 
those programs were in place.
    There have been several studies like that. I don't know why 
we ignore them. But it shows that if we are willing to support 
good parenting, through educating parents, through supporting 
them--even teenagers who happen to get pregnant--if we support 
them in developing as parents in bonding with the child, it 
makes a big difference in the future of those children.
    Ms. Wright Edelman. Can I just say one thing; that there's 
some obvious building blocks that we could get done right now, 
and I hope that we don't have universal kindergarten in our 
States. I think it's about 12 States, if my memory is right, 
but I have to check.
    But the first thing, we were all talking about universal 
pre-K. Well, universal pre-K without universal K makes no 
sense. And so, at least you ought to bring it down 1 year, and 
bring it down 2 years and put in the high-quality year-round 
options.
    But my basic point is, we've talked about silos from the 
inside. We've also got to stop the silos on the outside.
    The preschool people often don't talk to the K-people, 
don't talk to the Head Start people, and Early Head Start 
doesn't talk to regular Head Start, and they don't--it's about 
children. It's not about providers, it's not about adult jobs; 
it's about what's going to make sense and is going to be for 
the best welfare of the children and their families.
    All of us need to get our act together and break down these 
silos. There are a couple of cracks in the barrel, and we don't 
have enough funding and all that, but children have to be at 
the core of the policy-development process.
    So what makes sense? What's going to be good for them, not 
what is our organizational interest, or what is our whatever 
interest, bravado interest. And in most systems, sadly, 
children are beside the point. And the debates that go on don't 
have very much to do with children.
    If we just keep children at the core, and families, and 
what they need; and then how do we forge the right policy and 
adjust them from time to time as changes needs change, then I 
think we'll be on the right road.
    Ms. Blank. We have one program, one national building block 
that focuses on what the doctor spoke about, the needs of very 
young children and their families, that's starting to fade into 
the background; and that's Early Head Start.
    Early Head Start was started in 1993 under President 
Clinton by this committee, and it's a comprehensive approach to 
reaching mothers, even pregnant mothers in young children, and 
it got a big boost in the Economic Stimulus bill. But it seems 
to be just fading into the background. And we actually have the 
building blocks. Hopefully, we'll pull it out and have more 
than 4 percent of the babies and toddlers who could use the 
participation.
    Senator Sanders. Thank you. Thank you very much.
    Ms. Garner. It really is about supporting the mother, 
though, because the children growing up in poverty, by the time 
they're 3 or 4 they're hearing 33 million fewer words than kids 
in middle class. There's one book for every 300 kids versus 13 
books for every child in middle class. Those are just the 
smallest numbers, but it's the mother knowing to talk to her 
child.
    And, the mother has to not be depressed; has to have 
motivation. She has to be told that the child actually--that it 
matters to talk to this little blob who's not talking back. 
And, that's just as important. You have to take care of 
mothers.
    Senator Sanders. Thank you, very much.
    Senator Dodd. Only a mother of a 1-year-old would call them 
a ``blob''.
    [Laughter.]
    If any one of us had said that, however, you'd be in deep 
trouble.
    Ms. Garner. Yes, I can say it. I've been there.
    Senator Dodd. I just have a couple of things. Michael 
Bennet said something--and again, both Bernie and Michael have 
been tremendously helpful in this.
    And, again, I've done town hall meetings over the years. 
This is the one issue, you know, we're at a time when 
everyone's divided over environmental questions--what do you 
do, not do? There's not a single audience I've ever appeared 
before that when you say the following--there's not a single 
person in the room--the one thing we care about. We care about 
ourselves.
    If you really probe an audience, what they really care 
about more than themselves, is what happens to their kids and 
their grandchildren. And, that's really what this is all about. 
I mean, that's as natural as breathing, to me.
    In a highly-divided country, one where there's a lot of 
acrimony over various groups and organizations and what they 
stand for, if you were to ask me what's the one common issue, 
the one issue that we use in every faction in this country 
together, it's this one. It's this one.
    Now, there are debates about what you want to do, and so 
on, but, nonetheless, people understand the value and the 
importance, both from a national perspective as well as an 
individual.
    Jennifer, we talk about how to get this done. You're in the 
entertainment business. And first, I'm curious about why you 
chose this issue, but I wonder if you might share with us, 
today, the power--I saw yesterday where the average child is 
spending 5 hours a day in front of a TV screen. At least that's 
what the numbers were.
    Ms. Garner. It's child care.
    Senator Dodd. Yes. The power of the entertainment industry, 
to be able to educate, to inform--I still think it's as 
compelling as anything, and historically, that's been true. You 
go back and read the wonderful biographies.
    A good friend of mind wrote of Louis B. Mayer and others 
about how they were able, in the early days of film, to provide 
a common denominator and define for a Nation a certain value 
system, in many ways, because we all--or our grandparents and 
parents--went to the movies; and then as such they developed 
almost a sense of unity in the way that other events, 
historically, had not provided for the country.
    It's a rather interesting story, in my view; what the 
entertainment industry has been able to share with us; product 
placement, all of the ideas we know that go on as a way of 
instructing, informing people, educating people, promoting 
products and so on.
    I wonder if you've given any thought on how they--the 
business from which you come. You've made the choice, which is 
fabulous. You picked out this cluster of issues to focus your 
attention on.
    I wonder if you have any thoughts at all about how we can 
convince--or whether or not there is an appetite within the 
industry itself. And I realize it's a big, diverse industry, 
but, with video games and all of the things that are going on 
out there, if something more could be done within that 
industry, which I suspect has an appetite to want to be 
helpful, that could allow us to maybe do a better job on some 
of the things we have a hard time doing here.
    And again, Dr. Casserly's point about why do we do this 
thing in slices? I'll tell you why; because it's the only way 
to get it done. I've been the sponsor of Marian's bills--our 
comprehensive bills. We could never get one other co-sponsor. 
And, yet, if I pick out a slice of it and I make it narrow 
enough, I can go around and I can shop it and I spent thousands 
of hours, I spent shopping ideas to get a co-sponsor on the 
other side to work on it. And, every time I get with--when 
someone tries to expand the product, it runs into a deep hole. 
It never comes out.
    The rationale for doing this is not because we don't agree 
with you--I do agree with you. But, if I waited for that to 
happen, we'd be sitting around here still talking about the 
things that we wish would occur.
    I'm jumping around a little bit, but Jennifer, do you have 
any thoughts on that?
    Ms. Garner. Well, your first question, why I became 
interested?
    Senator Dodd. Right.
    Ms. Garner. In this issue.
    Senator Dodd. Right.
    Ms. Garner. Just briefly. I know everyone's been here a 
while. My mother grew up the daughter of a dirt farmer in 
Oklahoma, one of 11 kids in extreme poverty during the 
depression--extreme poverty. She was the only one to leave and 
to go to college and travel the world, actually. And the way 
that she did that was--there was a reason, she believes, that 
she had those opportunities because her family was committed to 
reciting poetry as they did the chores, singing together, 
reading together. They would muster up books and read them, 
read them, read them, re-read them, re-read them.
    And, she had kindergarten-readiness when she started school 
just from those basic building blocks, just kids trying to get 
through the day together without a nickel to rub together. And, 
because of that she always excelled in school. She knew how to 
learn, she knew--and because she got that positive 
reinforcement from school, she went on and graduated from 
college.
    I grew up, then, in West Virginia where I was, of course, 
surrounded by--I grew up in a middle class family. I was very 
fortunate. My parents knew that education was the foundation 
for everything, but I was surrounded by kids who I could see, 
with my own eyes, had much less than I did, and I saw that they 
did not do as well in school.
    It was very easy for me, when I started to have a little 
bit of a voice in the world, I felt like other than the great 
mentorship I got from Marian early on, the kids in my community 
were not being serviced.
    So, that is what led me to Save the Children, who work, 
specifically, more with kids in rural America.
    And, the entertainment industry is an incredibly 
philanthropic industry, don't you find? And, very eager to get 
involved and dig into Washington, certainly, and muck around 
here.
    Entertainment is not the answer to educate kids, by any 
stretch. I may do it, but I don't have a TV on in my house, 
although I will be on Sesame Street in a couple of weeks, and 
that's kind of the biggest moment of my career to date.
    This problem of kids sitting in front of a television while 
their parents are doing everything, it's certainly pervasive, 
and there are good, educational stuff on television. It's not 
that I don't believe in Sesame Street or Dinosaur Train, but 
there has to be money to fund those. There has to be money to 
fund PBS or else the things that kind of put sarcasm and 
ugliness and kids putting each other down, which as far as I 
can tell, is what's offered to young children, is going to be 
more the norm.
    Senator Dodd. Yes. Well, I hear you and I see that as well, 
and because I don't think you're going to necessarily change--
unfortunately, watch it, but a lot of these so-called child 
care settings, which are not the ones that we've talked about, 
but where, basically pretty much putting a bunch of kids in 
front of a TV screen for 3 or 4 hours, and that constitutes 
child care.
    And, to the extent the industry is so much of what kids 
learn, what they model and so forth, there's no reason why a 
good story can't be told in a way----
    Ms. Garner. Well, there's no Mr. Rogers anymore. It's 
``iCarley'' and ``Hannah Montana.''
    Senator Dodd. Yes. And, I'm just as curious as to why, 
because I suspect there are people who are involved in that who 
would also want to be associated and think of themselves----
    Ms. Garner. Of course. Absolutely. But, they're in a 
business and those shows were funded. They were funded by the 
public broadcasting network, and--isn't that PBS' Public 
something, and if they're not funded, they'll go to what makes 
money and what sells their corn flakes, and that's this stuff 
that you see on television now.
    Senator Dodd. Gary Goldberg, whom I've known for a long 
time is involved in some of the most successful commercial 
television programming. He's also one of the great advocates of 
child care.
    One of the oldest child care settings in the country is in 
Santa Monica, which was developed during World War II, and 
sustained itself, even though others closed their doors when 
lifestyles changed at the end of World War II, and yet it 
developed some very good, very successful commercial 
programming that also had the ability of also being a source of 
positive messaging, and can make a difference.
    I'm not expecting people to become all PBS stations, 
necessarily. I realize that's not going to happen, but again, 
I'm not going to dwell on this particular point, but since we 
had you in front of us here, and you come out of the industry, 
I thought I'd at least explore the idea with you, as to whether 
or not there might be a better way, since it preoccupies so 
much of a child's time, it seems to me, that we're not going to 
stop that, necessarily.
    So, the question is, can we channel it in some way----
    Ms. Garner. Yes.
    Senator Dodd [continuing]. To have a more positive impact 
on this whole question we're raising. And, with adults, as 
well. I mean, a lot of the times, what programming between 7 
p.m. and 10 p.m., so-called ``prime time''--to what extent--are 
there any efforts, during that programming, to be able to also 
use it as an educational tool on what's occurring in our 
country.
    Ms. Garner. No, sir, there are not. I've been on these 
programs. We don't try to educate you; we try to sell you cars.
    Senator Dodd. Yes.
    Ms. Garner. Yes, there is definitely a missed opportunity 
in educating and entertaining kids at the same time.
    Senator Dodd. Yes.
    Ms. Garner. It's out there. Those shows do exist. They are 
successful. But it is not the norm.
    Senator Dodd. No. Well, with that note of good----
    [Laughter.]
    Well, listen, I too want to echo what Bernie Sanders said, 
and that is--and for me, of course, over the last 30 years, 
it's not been an uncommon experience to have the wonderful 
pleasure of sitting on this side of the dais, to hear the 
eloquence and compassion and commitment of so many of you at 
the table this morning.
    It's a nice note on which to end, I think.
    [Applause.]
    [Additional material follows.]

                          ADDITIONAL MATERIAL

 Prepared Statement of Debra L. Ness, President, National Partnership 
                          for Women & Families

 SECURING OUR CHILDREN'S FUTURE THROUGH FAMILY-FRIENDLY PUBLIC POLICIES

    The National Partnership for Women & Families applauds Chairman 
Dodd for his career-long dedication to improving the lives of women and 
children. We thank him for convening these hearings to point the way 
for future action on these vital issues.
    Children are our Nation's future. Safeguarding their health and 
enhancing their ability to learn must be a top priority. America's 
children will only thrive if the people who care for them the most--
their parents and guardians--can take the time away from work to look 
after them when they are sick. Family-friendly workplace policies that 
provide paid sick days and paid family leave are crucial to the health 
and well-being of America's children.
    Let's face it--children get sick. Children face both short-term, 
common illnesses and long-term serious health conditions; in both 
cases, they need their parents with them to get better faster. Younger 
children in particular need parental care and supervision when they 
fall ill, and sick children of all ages need parents to administer 
medicine and take them to medical appointments. Study after study shows 
that children recover faster when cared for by their parents. The mere 
presence of a parent at a child's bedside shortens the child's hospital 
stay by 31 percent,\1\ reducing health care costs and improving health 
outcomes.\2\
    Children--and our communities--suffer when parents lack paid leave. 
Despite the clear benefits for children and families, many parents 
can't be there for their sick children because their employers don't 
offer paid sick days or paid family leave. At least 53 percent of 
working mothers and 48 percent of working fathers don't have access to 
paid sick days to care for a sick child or recover from their own 
illnesses \3\ and only 10 percent of private-sector workers have access 
to paid family leave through their employers.\4\
    When routine illnesses like the flu strike, many children go it 
alone at home without anyone to care for them, or they go to school 
sick--and risk getting sicker--because their parents can't take time 
off from their jobs. Parents without paid sick days are more than twice 
as likely to send a sick child to school or daycare.\5\ When children 
go to school or child care sick, it affects their ability to learn, and 
the health of other children, teachers, and child care providers is 
also put at risk.\6\ The result is similar to when sick adults go to 
work: decreased productivity, increased contagion and higher rates of 
infection for all.
    Paid leave is good for newborns and early childhood development as 
well. Paid parental leave is associated with lower child mortality 
rates and healthy child development.\7\ Children whose mothers take 
longer leaves before returning to work full-time after giving birth are 
more likely to be taken to the pediatrician for regular checkups and 
more likely to be breast-fed, which contributes to life-long child 
health.\8\
    The health and well-being of children improves when mothers and 
fathers have access to paid sick days and paid family leave. When 
parents can't take time away from work, children cannot get the timely 
medical care they need. Parents without paid sick days are five times 
more likely to take a child or other family member to an emergency 
room.\9\ In contrast, working parents with paid sick time or paid 
vacation days are five times more likely to stay home to care for their 
sick children than those without paid time off.\10\ Children's long-
term health is better because they are more likely to be taken to well-
child visits and to get their immunizations, which may prevent serious 
illnesses, when their parents have paid sick days.\11\
    Working families across the country need and want these policies. 
Seventy-six percent of Americans believe that businesses should be 
required to provide paid family and medical leave, including 61 percent 
of Republicans and 90 percent of Democrats.\12\ States and cities 
across the country have already taken the lead in moving legislation 
forward and the time has come for Federal action as well. Proposals 
like the Healthy Families Act and paid family leave insurance programs 
would make a tremendous difference to the health and well-being of our 
Nation's children. They must be a priority for this committee and the 
Congress in the future.

                               References

    \1\ Jody Heymann, The Widening Gap: Why America's Working Families 
Are in Jeopardy--and What Can Be Done About It, Basic Books. 2000.
    \2\ S.J. Heymann, Alison Earle, and Brian Egleston. 1996. As cited 
in Vicky Lovell, Paid Sick Days Improve Public Health by Reducing the 
Spread of Disease, Institute for Women's Policy Research. 2006. http://
www.iwpr.org/pdf/B250.pdf.
    \3\ Vicky Lovell, No Time to Be Sick: Why Everyone Suffers When 
Workers Don't Have Paid Sick Leave, Institute for Women's Policy 
Research. 2004. http://www.iwpr.org/pdf/B242.pdf.
    \4\ U.S. Bureau of Labor Statistics, ``Table 32: Leave benefits: 
Access, civilian workers,'' National Compensation Survey. March 2010. 
http://www.bls.gov/ncs/ebs/benefits/2010/ebbl0046.pdf.
    \5\ National Opinion Research Center at the University of Chicago 
for the Public Welfare Foundation, Paid Sick Days: Attitudes and 
Experiences. May 2010. http://www.publicwelfare.org/resources/DocFiles/
psd2010final.pdf.
    \6\ Ibid.
    \7\ Christopher J. Ruhm, ``Parental Leave and Child Health,'' 
Journal of Health Economics, Vol. 19, No. 6, 952. 2000.
    \8\ Lawrence M. Berger, Jennifer Hill, and Jane Waldfogel, 
``Maternity Leave, Early Maternal Employment and Child Health and 
Development in the U.S.,'' The Economic Journal, Vol. 115, No. 501, 44. 
2005.
    \9\ See note 5.
    \10\ S.J. Heymann, S. Toomey, and F. Furstenberg, ``Working 
Parents: What Factors are Involved in Their Ability to Take Time Off 
From Work When Their Children are Sick?,'' Archives of Pediatrics & 
Adolescent Medicine 153. August 1999. 870-74. As cited in Lovell 2006.
    \11\ See note 2.
    \12\ Heather Boushey, ``It's Time for Policies to Match Family 
Needs.'' 2010. In Maria Shriver, Heather Boushey, Ann O'Leary, and John 
Podesta, The Shriver Report: A Woman's Nation Changes Everything. 2009. 
http://www.americanprogress.
org/issues/2010/03/pdf/work_survey.pdf.

      Prepared Statement of Tracy L. Wareing, Executive Director, 

             THE AMERICAN PUBLIC HUMAN SERVICES ASSOCIATION

    Chairman Dodd, Ranking Member Alexander, and honorable members of 
the Children and Families Subcommittee, the National Association of 
State Child Care Administrators, an affiliate organization of the 
American Public Human Services Association, respectfully submits this 
statement for the record on ``the state of the American child.''
    APHSA is a nonprofit, bipartisan organization representing State 
and local human service professionals for more than 80 years. NASCCA 
serves State child care administrators and supports its members in 
developing, promoting and implementing child care and early learning 
policies that improve the well-being of children and the quality of 
child care. NASCCA brings State child care administrators' perspective 
on issues facing the Nation's low-income children and families to the 
forefront of Congress and the Obama administration.
    As you know, child care is an essential resource for America's 
families to obtain and secure employment while simultaneously ensuring 
that today's children are prepared to be tomorrow's leaders. The Child 
Care and Development Fund plays a critical role in providing low-income 
families with subsidized child care so they can work or attain 
training/education and at the same time, support the investment of 
quality care and early education for children. The CCDF is a flexible 
block grant; therefore the program is operated with great variation 
among States. The CCDF lead agencies provide training, grants and loans 
to providers, improved monitoring, compensation projects and other 
innovative programs. In addition, child care administrators use CCDF to 
make systemic investments, such as developing quality rating and 
improvement systems and professional development systems to improve the 
overall child care infrastructure. States may access up to 30 percent 
of Temporary Assistance for Needy Families transfer funds for child 
care expenditures. Maintaining the relationship between TANF and child 
care is essential for low-income families to continue working while 
their children receive quality care and education.
    The American Recovery and Reinvestment Act provided States with 
additional funds to maintain their child care programs within tough 
budget constraints. States have been using these dollars in a variety 
of ways; however, stimulus funds were mainly used to lower child care 
copayments and make them affordable for families who have been greatly 
affected by the economic downturn. Some States, territories and tribes 
have used ARRA funds to increase provider rates, which has been an 
important incentive to help child care providers maintain their 
businesses and continue operating their services. Without stimulus 
dollars, many children eligible for child care subsidies would have 
been restricted from receiving this support, parents would have been 
challenged to obtain work without access to affordable care for their 
children, and child care waiting lists would have been greater. ARRA 
dollars are a one-time-investment and although they will soon expire, 
child care administrators have wisely and efficiently used these funds 
to restore and revamp the child care infrastructure, which are 
projected to produce better outcomes in years to come. These 
advancements include professional development opportunities for child 
care providers, technology enhancements that improve data collection 
and reports and promotion of quality child care. Stimulus funds have 
been critical in providing families with economic support and States 
with fiscal relief to maintain their programs during this time of 
recession. We thank Congress for this temporary relief; however, more 
work needs to be done to continue these developments.
    Federal child care funding levels have not aligned with program 
needs and with the increase in inflation since 2002. In addition, while 
States focus on improving the quality of child care programs, low-
income families struggle with affording the costs associated with 
enrolling their children in high-quality child care settings. High-
quality care is in great demand and is beneficial for securing the 
Nation's workforce and developing human capital. As a result, it will 
alleviate the economic burden in our country and produce a return on 
States' investment. To ensure that more children gain access to this 
type of early education, it is essential for Congress to reauthorize 
the Child Care and Development Block Grant.
    We recommend the following:

    <bullet> Increase CCDBG funding levels and maintain its 
flexibility;
    <bullet> Maintain partnership with the TANF program;
    <bullet> Relax Federal requirements for matching funds;
    <bullet> Support States' efforts to address the workforce 
development needs of child care workers that promote high-quality care 
and early education.

    We look forward to working with Congress on these recommendations. 
Thank you for the opportunity to submit our comments and your interest 
in examining the state of the American child. If you have any 
questions, please contact Rashida Brown at (202) 682-0100 x225 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a382b3922232e2b642838253d240a2b3a22392b6425382d64">[email&#160;protected]</a>

    Response to Questions of Senator Hatch by Marian Wright Edelman
    Question 1. A portion of your testimony was devoted to the subject 
of gun violence among our Nation's youth. You made the following 
statement in both your written and verbal testimony:

          The terrible Taliban terrorist threat to American child and 
        citizen safety is rivaled by the terrible NRA threat which 
        terrorizes our political leaders from protecting our children 
        from the over 280 million guns in circulation which have taken 
        over 110,000 child lives since 1979, when gun data collection 
        by age began.

    Now, I won't fault anyone simply for engaging in hyperbole to make 
a larger point. However, I believe it is more than simple exaggeration 
to compare the Taliban to the National Rifle Association. It is, quite 
simply, needlessly inflammatory and, in my opinion, irresponsible. The 
NRA has nearly 4 million members representing all walks of American 
life. In most polls, it has a higher approval rating than either 
political party. More importantly, virtually every poll has shown that 
the vast majority of Americans support the NRA's chief policy goal, 
which is the preservation of the rights of gun ownership for law-
abiding citizens.
    Obviously, you are free to disagree with the NRA's position on any 
number of issues. I am, of course, aware that it is all the rage these 
days to compare one's political opponents to the worst elements of 
human society, whether it is Hitler or the Taliban. However, I believe 
such tactics are detrimental to our discourse and, in the end, 
unpersuasive.
    My question to you is: Do you honestly believe that one can make a 
meaningful comparison between the NRA and the Taliban? Do you truly 
believe the NRA is responsible for gun violence in America? If so, does 
that responsibility extend to the NRA's millions of members and the 
majority of American citizens who support the rights of gun owners? 
And, do you include the Supreme Court--which has validated the NRA's 
position on the meaning of the Second Amendment--in that criticism? 
Many members of Congress also share this view. Are we, in your view, 
also culpable for the deaths of children?
    Answer 1. Over 280 million guns are in civilian hands in the United 
States; that is approximately 9 guns for every 10 men, women and 
children.\1\ Every year, an estimated 4.5 million new firearms, 
including 2 million handguns, are sold.\2\ With this many guns in 
civilian hands, the terrible truth is that there is no place to hide 
from gun violence. Children and teens are not safe from gun violence at 
school, at home, or anywhere else in America.
---------------------------------------------------------------------------
    \1\ L. Hepburn, M. Miller, D. Azrael, and D. Hemenway. 2007. The U. 
S. Gun Stock: Results from the 2004 National Firearms Survey. Injury 
Prevention 13: 15-19. Available at http://injuryprevention.bmj.com/
content/13/1/15.full. Accessed July 2010.
    \2\ Bureau of Alcohol, Tobacco, and Firearms. 2000. Commerce in 
Firearms in the United States. Washington, DC: Department of the 
Treasury.
---------------------------------------------------------------------------
    Children in America face the highest death toll from guns of any 
other industrialized nation. Internationally, no other country comes 
close. Children and teens killed by gunfire in 2007 nearly equaled the 
total number of U.S. combat deaths in Iraq since the war started and 
were more than four times the number of American combat fatalities in 
Afghanistan. The child gun death toll since 1979 is double the death 
toll of U.S. soldiers killed in the Vietnam War.
    Although polls show that the majority of Americans favor common-
sense gun control laws that would reduce the epidemic of gun deaths, 
Federal and State legislative reforms have been difficult to achieve. I 
firmly believe that the National Rifle Association (NRA), with its 
growing power and political influence, has been a major impediment to 
the passage of common-sense gun legislation that could help keep our 
children safe from guns.
    As you know, Congress has not embraced pursuit of significant gun 
control legislation in nearly two decades, despite an annual rate of 
firearm deaths that exceeds all other industrialized nations. The 1993 
Brady Handgun Violence Prevention Act required gun dealers, but not 
private sellers (known as the ``gun show loop hole''), to run 
background checks on gun buyers. One year later, Congress passed 
legislation banning private ownership of assault weapons. Since then, 
there has been only bad news. Rather than acting to stem gun violence, 
Congress let the assault weapons ban expire and passed legislation to 
protect gun manufacturers and dealers from lawsuits if their guns are 
used to commit a crime.
    We need to protect our children by enacting legislation to limit 
the number of guns in our communities, control who can obtain firearms 
(keep guns out of the hands of criminals and people who kill children), 
and ensure that guns in the home are stored safely and securely. The 
Centers for Disease Control and Prevention estimates that nearly 2 
million children live in homes with loaded and unlocked guns.
    The NRA has made clear its opposition to nearly all forms of gun 
control including restrictions on assault weapon ownership (which have 
nothing to do with hunting), handgun registration requirements, and 
buyer background checks, despite a recent survey suggesting its members 
may have more moderate views about certain gun control measures.\3\ The 
NRA continues to go to great lengths to protect gun rights and actions 
that often result in policy and real life outcomes that are not in the 
best interest of our Nation's children and threaten their safety.
---------------------------------------------------------------------------
    \3\ ``Gun Owners: NRA Gun-Owners and Non-NRA Gun Owners,'' Poll 
commissioned by the Mayors Against Illegal Guns, December 2009. 
Available at http://www.mayorsagainstillegal
guns.org/html/federal/nra_member_poll.shtml.
---------------------------------------------------------------------------
    For example:

    <bullet> A popular 2009 bill that placed certain restrictions on 
credit card lenders came with a totally unrelated provision negotiated 
by the NRA which allows people to carry loaded guns in national parks.
    <bullet> In the 2010 health care debate, the NRA successfully 
lobbied Congress to include a little noticed provision that will 
prohibit health insurance companies from charging higher premiums for 
people who keep a gun in their home.
    <bullet> In June 2010, a measure that would have given the District 
of Columbia a voting seat in Congress never made it to a vote in part 
because the NRA inserted a provision to substantially weaken the 
District's gun laws.

    The NRA has also worked to build influence by working out a deal in 
2010 to exempt only itself from the DISCLOSE Act, a campaign finance 
bill that would require groups that spend more than $10,000 a year on 
campaign activities to disclose their donors.
    It seems nonsensical that U.S. Consumer Product Safety Commission 
regulates toy guns and teddy bears but not real guns that snuffed out 
the lives of 3,042 children and teens in 2007.
    The U.S. Supreme Court has recently concluded that the Second 
Amendment's guarantee of an individual right to have a gun in the home 
for self-defense applies to Federal, State and local gun control laws. 
However, it is significant and important to note that the Court also 
was careful to point out that its recent rulings do not prohibit all 
government regulation of guns. The Court specified that the government 
has a vital interest in placing limits on certain types of guns, the 
sale of guns and where they can be kept and carried. Urgent steps must 
be taken to keep our children and communities safe from guns.

    Question 2. I'd also like to take a closer look at some of the 
numbers cited in your testimony. In your statement, you cited that 
there were roughly 3,000 gun-related deaths among American children in 
2007. I presume you got these numbers from the National Center for 
Health Statistics (NCHS). What you didn't cite was the fact that most 
of the deaths represented in that number were not among children, nor 
even adolescents. The vast majority of the gun-related deaths cited in 
your testimony occur among juveniles and young adults, those between 
the ages of 15 and 20. Only a very small percentage of those deaths 
were among people young enough to fit the normal understanding of 
childhood ages.
    More importantly, you also neglected to mention the fact that, 
according to the NCHS, gun-related deaths in the U.S.--including those 
among young people--have been declining steadily over the last three 
decades. This decline in gun violence has occurred even as public 
support for the rights of gun owners has increased and as supporters of 
Second Amendment rights have continued to prevail politically.
    Do you acknowledge that, according to the available evidence, gun 
violence in America is actually on the decline instead of getting 
worse? If so, to what would you attribute the decrease in violence, 
given that, according to your testimony, political leaders have been 
``terrorized'' from protecting our children?
    Answer 2. As we acknowledge in the Children's Defense Fund's recent 
report, Protect Children Not Guns 2010, gun violence among children and 
teens has been declining since the mid-1990s. After reaching an all-
time high of 5,793 gun deaths in 1994, the annual number of firearm 
deaths of children and teens declined by 47 percent between 1994 and 
2007, although the number increased in 2005 and 2006 and remained above 
3,000 in 2007. Although the total annual number of firearm deaths of 
White children has historically surpassed Black children (until 2007), 
gun deaths among White children and teens have decreased by 54 percent 
since 1979 while gun deaths of Black children and teens have increased 
by 61 percent over the same period.
    While recognizing the overall decrease in gun deaths, I firmly 
believe that the number of children and teens killed by guns every year 
in this country--3,042 in 2007--is profoundly unacceptable. We also 
must not forget the 17,253--almost six times as many--children and 
teens who suffered non-fatal gun injuries and their emotional aftermath 
that same year.
    We are clear in our Protect Children Not Guns 2010 report that 95 
percent of firearm deaths of young people occurred among children and 
teens 10 to 19 years old and we believe that each of their lives is of 
equal value. More young people in that age range die from gunshot 
wounds in America than from any cause other than motor vehicle 
accidents. Shamefully, in 2007 there also were 154 children younger 
than 10 killed by firearms. The 85 preschoolers in this group exceeded 
the number of law enforcement officers killed in the line of duty that 
year.
    Every adult and leader has a responsibility to protect children and 
to take necessary steps to stop this senseless and unnecessary loss of 
young lives and the other physical and emotional harm to children and 
teens resulting from guns. Many children in poor neighborhoods are 
suffering from post-traumatic stress disorder on a daily basis, which 
cripples their lives, but the random mass killing--whether at Columbine 
or Virginia Tech--could be alleviated if powerful automatic weapons 
were not available to non-law enforcement officials. Guns make anger 
lethal and victimize innocent people including children.

    [Whereupon, at 12:37 p.m., the hearing was adjourned.

                                   

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
